<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         MONDAY, APRIL 7, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:40 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Cochran, Craig, and Reid.

                          DEPARTMENT OF ENERGY

                   Office of Environmental Management

STATEMENT OF JESSIE HILL ROBERSON, ASSISTANT SECRETARY

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Today the subcommittee is going to review 
the Department of Energy's fiscal year 2004 budget request for 
(1) the Office of Environmental Management and (2) the Office 
of Civilian Radioactive Waste Management.
    In that regard, we will receive testimony from Ms. Jessie 
H. Roberson, Assistant Secretary for Environmental Management, 
and from Dr. Margaret S.Y. Chu, Director of the Office of 
Civilian Radioactive Waste Management. Both of today's 
witnesses have testified before this subcommittee before. We 
welcome you back and we look forward to your testimony today.
    For the Office of Environmental Management the Department 
has requested $7.2 billion, an increase of 4 percent from the 
current year of $6.9 billion.
    Secretary Roberson, since you took this job 2 years ago you 
have done many impressive things. You have led and completed a 
top-to-bottom review, you have revised the clean-up estimates 
to take 35 years and $30 billion off the projected clean-up 
program, you have significantly narrowed the focus of the 
program, which was very much needed, you have shaken up the 
senior management of your office--I do not know that you want 
to say that. We will just say that for you--downsized the 
headquarters staff, and you have recompeted existing clean-up 
contracts, and perhaps most notably, secured increased budget 
requests from the Office of Management and Budget. That is 
truly borderline miraculous, considering that they always 
wanted us to do more with less.
    You have successfully increased the amount of money that is 
going into this function, and now for fiscal year 2004 you are 
promising to get rid of the Idaho National Engineering and 
Environmental Laboratory by transferring it to the Office of 
Nuclear Energy and completely restructuring the budget to focus 
on your newly defined priority.
    All of these we commend you for.
    You have been nothing if not very busy during these first 2 
years. You have proposed many changes in the programs. Many we 
have liked, some we are not so sure we like, but all have been 
vigorously pursued, and I believe your efforts will produce 
real successes in years to come.
    Still you have many challenges ahead, and I am sure you 
will tell us about them today. You must continue to improve 
project management. The Department must ensure that the letters 
of intent and performance management plans produced over the 
last years are funded and--equally important--followed. The 
Department must convince the State regulators, jaded by years 
of broken promises, that the Department is a reliable partner 
in this clean-up, and the Department must learn to work more 
efficiently, even in an era of heightened safeguards and 
security concerns.
    Your progress to date has been very good. I look forward to 
hearing about your plans for fiscal year 2004.
    Now, regarding the budget request for the Office of 
Civilian Radioactive Waste Management, this year it is $591 
million, an increase of $131 million, a 28 percent increase. 
After 20 years of scientific study, last year the President 
notified Congress that the Yucca Mountain site should begin the 
rigorous process of scientific and technical review leading to 
an NRC license for the facility. In July of last year, Congress 
accepted the President's recommendation, and the Yucca Mountain 
project now shifts its focus to licensing, building and 
operating the repository and related transportation 
infrastructure. This is a huge task, and no one knows that 
better than our Ranking Member, Senator Reid.
    The country has decided to proceed with the construction of 
a nuclear waste repository, and it will cost close to $10 
billion in the next several years to complete it. We are all 
going to have to work together to ensure a strong future for 
nuclear power in our country and the world. Economics and 
environmental protection will demand a major role for nuclear 
power, and an acceptable spent fuel management policy, but even 
if we are successful in developing alternative methods of 
treating spent nuclear fuel, the country must still have a 
permanent geological repository.
    Each of the program areas before us today will present 
unique challenges for this subcommittee. I will look forward to 
engaging each of our witnesses today and working with all the 
members of this subcommittee to put together the best possible 
appropriations bill.
    I will now yield to my Ranking Member, Senator Reid. Thank 
you, Senator Reid.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Thank you very much, Mr. Chairman.
    Our subcommittee has spent a lot of time working with you, 
Secretary Roberson, and your staff on the administration's 
clean-up initiative last year. Obviously, I am happy to see 
that your budget request fully supports the accelerated clean-
up program that has resulted from your efforts last year, but 
the hard part now begins. We need to turn to the higher dollar 
totals you are getting now and for the next few years into 
verifiable progress in getting clean-ups done more quickly and 
at lower cost.
    There are members of this subcommittee and certainly the 
full committee from States that have much bigger clean-up 
programs than does Nevada, for sure, and if they have more 
questions, they will pursue those, the details of that, but 
your request this year includes a plea for some additional 
flexibility on the treatment of construction projects, and this 
is something I am confident Senator Domenici and I can 
consider.
    Let me now talk to you, Dr. Chu. As I understand it, and I 
am almost certain I am right, this is your first opportunity to 
testify before this subcommittee. I am most interested in 
several statements that you made about the Department of 
Energy's plans for submitting a license application in December 
of 2004.
    One of the most important conclusions of a report issued by 
the GAO a few years ago was that DOE never rebaselined the 
Yucca Mountain project. Your written testimony suggests the 
only thing standing between you and a license application in 
the fourth quarter of fiscal year 2004 is getting the full 
fiscal year 2004 budget request. This strikes me as somewhat 
unlikely, and I suspect it would strike the GAO as absurd, 
given the technical and financial difficulties that your office 
has faced for years, not you personally, but your office.
    Even if you do file an application on time next year, your 
supporters are probably going to want to know how it is that 
you were able to get everything you needed to be done so 
correctly and promptly when Congress has not given you anything 
close to your budget request for more than a decade. All of us 
will want to know what you have done poorly or not at all in a 
rush to meet these milestones.
    As you know, one of the biggest concerns about this project 
is this issue of transporting waste across the country. Last 
year the Secretary of Energy seemed to say that there is plenty 
of time to resolve transportation issues. This is exactly what 
he said. Because the site has not yet been designated, the 
Department is just beginning to formulate its preliminary 
thoughts about the transportation plan. There is an 8-year 
period before any transportation to Yucca Mountain might occur. 
This will afford ample time to implement a program that builds 
upon a record of safe and orderly transportation of nuclear 
materials and makes improvements to it where appropriate, end 
of quote.
    Your testimony, though, paints a different picture, 
contrary to what the Secretary said. You indicate in your 
testimony you have been underfunded and as a result you have 
deferred critical work on transportation. I am more inclined to 
believe your testimony than that of the Secretary's. They are 
not compatible. One has to be more accurate than the other.
    The transportation of nuclear waste has tremendous 
implication for the health and safety of all Americans. It is 
not an issue that should be used as an example for political 
purposes. The fact remains, you have not studied transportation 
and have no assurance that you can do this. I do not understand 
how you can consider beginning a licensing process for the 
repository when you do not know how you would transport this 
waste.
    While we are on the issue of trust, I want to make this 
point about what I feel is the unfair treatment of Nevada. The 
issue has only been worse, and I am not talking about you 
personally, because you are new on the job and we have great 
expectations for you and, as you know, I released a hold that I 
had on you indicating that I thought you had good credentials 
and would try to be fair, and you indicated that you would be, 
and I have nothing to indicate that is not the case.
    However, we have $600,000 in oversight funds for the State 
of Nevada from fiscal year 2002 that have not been released to 
the State, yet you are also holding half of the funding for the 
State's affected counties despite the fact that your own 
internal audits have revealed problems in only two of the 
counties, that is Nye and Lincoln Counties.
    If the audits are revealing disallowed costs in one or two 
counties, I would prefer that you divert the funding to the 
other units of affected government rather than sitting on it 
all. I am not going to defend any counties that are spending 
Federal dollars inappropriately if that, in fact, is the case, 
but it is really unacceptable for you to hold all the monies 
because two counties are doing something allegedly wrong.
    And to make matters worse, the DOE has failed to provide 
oversight funding for the States and counties in the fiscal 
year 2004 budget. We put some money in, but we should not have 
to do that. That should be part of the responsibility of you, 
because there is lofty rhetoric coming out of the Department 
all the time concerning partnering with our State and its 
counties, but cutting off all funds does not seem to fill me 
with any hope that you really care about what is taking place 
in Nevada.

                           PREPARED STATEMENT

    You have explained to my staff that you called for a 
pause--that is your word, not mine--on funding, but I do not 
find any of that compelling and plan to reinsert funding in the 
fiscal year 2004 bill. I think that would be the right thing to 
do.
    Chairman Domenici has never tolerated the Department 
treating his State or any other State or any locality shabbily, 
and I am going to continue the example set by Senator Domenici 
on how New Mexico has been treated with all the many things the 
DOE has there, with what I feel should be the treatment of the 
people of Nevada.
    Thank you very much, Mr. Chairman.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Mr. Chairman, I appreciate you holding this hearing today to 
discuss the budget for the Environmental Management program and the 
Yucca Mountain program.
    Like you, I am pleased to welcome Ms. Jessie Roberson, the 
Assistant Secretary for the Office of Environmental Management, and Dr. 
Margaret Chu, the Director of the Office of Civilian Radioactive 
Nuclear Waste.
    Secretary Roberson, I am pleased you are here today. As the steward 
of the largest program office within the Department of Energy, you have 
a huge responsibility.
    Our Subcommittee spent a lot of time working with you and your 
staff on the Administration's Clean-up Reform Initiative last year. 
Obviously, I am very happy to see that your budget request fully 
supports the accelerated clean-up program that has resulted from your 
efforts last year.
    The hard part begins now. We need to turn the higher dollar totals 
you are getting now and for the next few years into verifiable progress 
on getting the clean-ups done more quickly and at lower cost.
    There are several Members here from states that have much bigger 
clean-up programs than does Nevada, so I will allow them to pursue you 
on those details.
    I see that your request this year includes a plea for some 
additional flexibility on the treatment of construction projects. This 
strikes me as something that Chairman Domenici and I can at least 
consider.
    However, let me now turn my attention to today's other witness, Dr. 
Chu.
    Dr. Chu, you have been on the job for just a little over a year 
now. For whatever reason, the Administration was not able to find a 
Bible and get you sworn in before last year's hearing despite your 
confirmation by the Senate, so I am glad you are finally getting your 
first opportunity to testify before this Subcommittee.
    I want to talk for a few minutes about several components of your 
testimony.
    I am most interested in several statements you make about the 
Department of Energy's plans for submitting a license application in 
December 2004.
    One of the most important conclusions of a report issued by the 
General Accounting Office a few years ago was that the DOE never re-
baselined the Yucca Mountain project.
    Your written testimony suggests that the only thing standing 
between you and a license application in the fourth quarter of calendar 
year 2004 is getting the full fiscal year 2004 budget request.
    This strikes me as unlikely, and I suspect it would strike the GAO 
as absurd, given the technical and financial difficulties you have 
faced for years.
    I completely understand why you would be reluctant to take advice 
from me on a Yucca Mountain-related matter, but I am going to offer you 
some anyway: if you are not going to make the deadline, you should 
probably start laying that groundwork now. If you wait until next year, 
the folks you are going to anger are going to be the Members whose 
support you need most.
    Additionally, even if you do file an application on-time next year, 
your supporters are probably going to want to know how it is that you 
were able to get everything you needed to do done correctly and 
properly when Congress has not given you anything close to your budget 
requests for the better part of a decade. All of us will want to know 
what you have done poorly or not at all in a rush to meet this 
milestone.
    As you know, one of my biggest concerns about this project is this 
issue of transporting waste across the country. Last year, the 
Secretary seemed to say that there is plenty of time to resolve 
transportation issues.
    Here is what he said:

    ``Because the site has not yet been designated, the Department is 
just beginning to formulate its preliminary thoughts about a 
transportation plan. There is an eight- year period before any 
transportation to Yucca Mountain might occur. This will afford ample 
time to implement a program that builds upon our record of safe and 
orderly transportation of nuclear materials and makes improvements to 
it where appropriate.''

    However, your testimony paints a very different picture. You 
indicate in your testimony that you have been underfunded and as a 
result you have ``deferred critical work on transportation.''
    The transportation of nuclear waste has tremendous implications for 
the health and safety of all Americans.
    It is not an issue that should be used as an example to make a 
political point.
    How are we supposed trust you to secure the health and safety of 
Nevadans, when we can't even trust you to tell the truth about what you 
are doing with your budget.
    The fact remains you haven't studied transportation and have no 
assurances that you can do this safely.
    I do not understand how you can consider beginning a licensing 
process for the repository when you don't even know how you would 
transport all this waste or if you can even do this safely.
    While we are on this issue of trust, I would like to make one final 
point about your program's treatment of the people of the Nevada.
    In my view, the Department of Energy has shown little regard for 
the people of Nevada.
    This issue has only become worse in the last few years. In fact, 
nearly $600,000 in oversight funds for the state of Nevada from fiscal 
year 2002 have not yet been released to the state. You are also holding 
on to half of the funding for all of Nevada's affected counties despite 
the fact that your internal audits have revealed problems in only two 
of them (Nye and Lincoln).
    If the audits are revealing disallowed costs in one or two counties 
I would much prefer that you divert the funding to the other units of 
affected government rather than sitting on it. I will not defend any 
counties that are spending Federal dollars inappropriately, if that is 
in fact the case, but it is unacceptable for you to be withholding 
those funds.
    To make matters worse, the Department of Energy has failed to 
provide oversight funding for the state and the counties in the state 
of Nevada in the 2004 fiscal year budget. For all of the lofty rhetoric 
coming out of the Department concerning partnering with our state and 
its counties, cutting off all funding does not fill me with hope that 
you really care about Nevadans at all.
    I understand you have explained to my staff why it is that you have 
called for a ``pause''--your word, not mine--in funding. However, I 
don't find any of that compelling and plan to re-insert funding into 
the fiscal year 2004 bill.
    Chairman Domenici has never tolerated the Department treating his 
state or his localities shabbily and neither will I.

    Senator Domenici. Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I would like to just make an 
opening statement and submit some questions for the record.
    Mr.Chairman, I am pleased to be here today to hear the 
testimony of Secretary Roberson. She oversees a very important 
program within the Department of Energy, the Environmental 
Management program. That program is currently conducting 
testing on a type of technology which has the potential to 
expedite the clean up of nuclear sites. This process is called 
the ``advanced vitrification system'' and the research on it is 
conducted at Mississippi State University's Diagnostic 
Instrumentation and Analysis Laboratory (DIAL).
    Following last year's hearing on this program, I was 
pleased to learn the Department had invested in the preparation 
of a work plan that would perform the engineering and design to 
bring the advanced vitrification system to a pilot plant for 
further testing. The advanced vitrification system technology 
has been tested and evaluated for the Department for several 
years at DIAL.
    I commend the Administration for its efforts to reform the 
waste program and I am pleased that our subcommittee provided 
funds to demonstrate higher risk, high-payoff technologies, 
including the advanced vitrification system technology. This 
Committee has also continued to express its support for these 
systems, most recently in the fiscal year 2003 Omnibus 
Appropriations Conference Report. In that the Congress urged 
``the Department to consider continued evaluation, development 
and demonstration of the Advanced Vitrification System'' and 
directed the Department to ``develop the vitrification-in-the-
final-disposal-container AVS system in accordance with the work 
plan.''
    Mr. Chairman, the government should continue to invest in 
advanced backup technologies that serve as an insurance policy 
and may be essential to the national defense. I look forward to 
hearing from Secretary Roberson on the progress she and 
Secretary Abraham are making to reform the Environmental 
Management program and achieve schedule and cost savings in the 
waste program. I am also interested in the status of the 
Department's evaluation of alternative technologies and I will 
have some questions regarding that effort and her intentions 
for implementing the Department's work plan for the advanced 
vitrification system technology.
    Madam Secretary, I am here to ask a question really, but I 
will submit the questions I have for the record and ask you to 
submit your answers for the record so we will not unnecessarily 
delay the hearing, but at last year's hearing you may remember 
that I raised a question about some competing technologies that 
might be available in our clean-up efforts, and I was very 
pleased to learn at that hearing that you had directed the 
preparation of a work plan that could lead to the establishment 
of a pilot plant for competitive testing against other 
technologies.
    This approach that is being tested now at Mississippi State 
University has the potential to provide reduced costs and 
competition that is needed in my opinion in this program. We 
put in the committee report last year a suggestion that this 
was an appropriate direction for the Department to move.

     ADVANCED VITRIFICATION SYSTEM (AVS) AND RADIOACTIVE ISOLATION 
                            CONSORTIUM (RIC)

    Much of the funding has shown that the potential of the 
advanced vitrification system at the Diagnostic and 
Instrumentation Laboratory at Mississippi State University is 
expected to provide analytical analysis that will answer 
questions and provide a testing history that could be used to 
compare with competing systems. I am hoping that you can give 
us an updated report on the status of this initiative and what 
your plans are for developing alternative technologies that 
offer a cost and schedule savings in this program. That is my 
purpose for being here.
    Ms. Roberson. We will be glad to do that for you, Senator.
    [The information follows:]

    As you may be aware, the DOE Office of Inspector General issued a 
report on the Advanced Vitrification System (AVS) in August 2002, 
providing the following recommendations:
  --Delay funding decisions on AVS until major uncertainties have been 
        addressed;
  --Develop specific, focused performance measures to more fully gauge 
        progress in the evaluation and selection of an alternative or 
        advanced vitrification technology; and
  --Address all technical, programmatic, and financial challenges and 
        uncertainties identified in previous studies during the 
        upcoming business plan evaluation.
    I have agreed with these recommendations and developed an Action 
Plan, which describes an approach to evaluate and develop 
immobilization alternatives for treating high-level waste (HLW) at 
Hanford. We have evaluated the technical and financial merits of AVS 
and other alternatives recommended by a technical panel. Those 
alternatives include an advanced Cold Crucible Melter and an Advanced 
Joule Heated melter. As part of the evaluation, questions regarding 
technical details of the AVS were provided to the Radioactive Isolation 
Consortium (RIC). Representatives from the RIC provided the Department 
with responses to the questions and participated in a review which was 
held on February 24-28, 2003, in Richland, Washington. The two review 
teams (technical and financial) are currently drafting their reports 
and will submit them to a DOE technical working group (TWG).
    The TWG has the responsibility of reviewing the reports and making 
a recommendation to me for future research and development of 
immobilization alternatives to treat HLW. A decision is currently 
planned for June 2003. The Department has extended the period of 
performance and associated funding to the Radioactive Isolation 
Consortium (RIC) through the end of June 2003 to support this schedule.

    Senator Cochran. I appreciate it. Thank you very much.
    Senator Domenici. Thank you, Senator.
    Secretary Roberson, will you proceed? Your testimony will 
be made a part of the record as if read. If you would 
abbreviate it, we would be pleased.
    Senator Reid. If I could just say this, I want to tell you 
how much I appreciate you holding a meeting on Monday. We 
should do more of these Mondays and Fridays when we do not have 
the Senate in session. We can do this uninterrupted. We are not 
running in and out of here. It is just such a better system, 
and I appreciate you doing this.
    Senator Domenici. Thank you. The only problem is, you are 
among the few that appreciate it.
    The other ones would rather not be at work on Monday, but I 
think it is a very good day, I agree with you.
    Please proceed.

                   STATEMENT OF JESSIE HILL ROBERSON

    Ms. Roberson. Thank you. Good afternoon, Chairman Domenici, 
members of the subcommittee, Senator Cochran, Senator Reid. I 
am pleased to be here today to discuss the President's fiscal 
year 2004 budget request for the Department of Energy's 
Environmental Management program.
    Eighteen months ago, Secretary Abraham directed me to 
review from top-to-bottom the EM program and uncover those 
obstacles hindering efficient and effective clean-up of our 
sites. As you may be aware, the top-to-bottom review, which was 
published last February, concluded that EM had lost the focus 
of its core mission to remedy the legacy of the Cold War's 
impact on the environment. We had to take immediate action.
    With the top-to-bottom review as the blueprint for the 
program, we have aligned EM's focus from risk management to 
risk reduction and accelerated clean-up and closure, the 
intended mission of the Environmental Management program from 
the start. We have made remarkable progress this year towards 
our goal of saving at least $50 billion over the life of the 
program and completing the program at least 35 years earlier, 
but we must not succumb to the idea that all problems are 
solved.
    The momentum we have gained must not be compromised or 
allowed to weaken. We must stay the course. The actions and 
strategies we have implemented, while producing key results, 
must be given the chance to further evolve, bringing even 
greater gains in risk reduction and clean-up sooner.
    Underpinning these strategies are several groundbreaking 
reforms that will propel us forward in our thinking and our 
actions. We are implementing a new acquisition strategy. We are 
aggressively using and managing the acquisition process as a 
key tool to drive contract performance and risk reduction 
results. We have established 10 special project teams to carve 
new innovative paths for accelerated clean-up. Each team is 
formulating corporate-level initiatives and activity-specific 
actions to accelerate risk reduction further and in a much more 
improved manner.
    We have implemented a strict configuration control 
management system that baselines a number of key critical 
program elements. Robust change control and monitoring of those 
key elements will facilitate a high confidence level that the 
direction of the program is on course and that our objectives 
are being accomplished.
    The budget request before you is one of our most crucial 
reforms. This request, a cornerstone of our transformation, is 
a major step toward aligning performance with the resources 
needed to expedite risk reduction and clean-up. This budget 
request sets the foundation for budget planning and execution 
of the accelerated risk reduction and closure initiatives.
    Today, the EM program is still very much a defense 
environmental liability, responsible for the disposition of 
many tons of special nuclear material, 88 million gallons of 
radioactive liquid waste, 2,500 metric tons of spent nuclear 
fuel, 135,000 cubic meters of transuranic waste, and well over 
1 million cubic meters of low-level waste. I ask the committee 
to stay with us as we continue our quest to eliminate risks 
posed by these materials at a pace few of us could have 
imagined 2 years ago.
    For example, just within the last week at Savannah River, 
the Defense waste processing facility was restarted on March 
29, and completed its first canister pour with waste and a new 
glass FRIT. At Savannah River on April 1, the first 3013 cans 
for safe long-term storage of plutonium materials was produced 
in the FP line packaging and stabilization system 60 days ahead 
of schedule.
    At Rocky Flats, the Plutonium Stabilization and Packaging 
System has produced 425 containers in the first 3 months of 
this year and is producing at a rate of 140 3013's per month, 
well ahead of the schedule for that campaign.
    At Hanford, as of April 4, we are 97 percent complete in 
stabilizing plutonium residues and are expecting to finish that 
commitment 10 months ahead of schedule. We are also removing 
and stabilizing spent fuel from K basins at a rate more than 
five times greater than when we began operations and are about 
54 percent complete.
    At the Office of River Protection, waste retrieval from 
Tank C-106 commenced on March 31. At Fernald, contract 
modification was completed on March 28, making closure in 2006 
an actual contract requirement and reducing the target cost by 
$400 million. Contract transition at Mound has been 
successfully completed and is focused on completing no later 
than March 2006. At Oak Ridge, equipment removal operations 
commenced in Building K-29 and ETTP, and at Idaho, the Advanced 
Mixed Waste Treatment project sent its first TRUPACT-II to WIPP 
on March 31.
    None of these were viewed as realistic goals 2 years ago by 
our skeptics and critics. We view our job as not to let 
skeptics convince us of what we cannot do, but to demonstrate 
by our actions what we can do. New ideas and breakthroughs have 
grown from looking beyond the paradigm of risk management to 
the new focus of accelerated risk reduction. We are 
experiencing the realization that for the first time the goal 
of completing the current clean-up is within our grasp.

                           PREPARED STATEMENT

    We are at a turning point in this program in spite of the 
challenges ahead, and there are challenges, challenges that 
have existed from the beginning of this program. We did not 
create them in accelerated clean-up. They have simply been 
lying in wait. We are taking these challenges on. Our momentum 
is building. I ask for your support of our fiscal year 2004 
budget request of $7.24 billion to ensure our impetus does not 
diminish.
    Thank you, sir.
    [The statement follows:]

               Prepared Statement of Jessie Hill Roberson

    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to discuss the reform of the Department of Energy's 
Environmental Management (EM) program, our progress in implementing 
cleanup reform, and the importance of sustaining the momentum for the 
benefit of the many generations to come. I appreciate the opportunity 
to sit before you and share our actions of this past year and the 
opportunities that lie before us.
    In 1996, Congress took a bold step that fundamentally altered the 
course of the cleanup program in the Department of Energy when it 
supported the accelerated closure of Rocky Flats. This was at a time 
when there was little reason and no demonstrated track record to 
believe that the Department could deliver on a challenge of this 
magnitude. Congress took further steps in 1999 when it created the 
Defense Facilities Closure Projects account and challenged the 
Department of Energy to close three of its nuclear sites by 2006. While 
it has taken significant effort and dedication, today all three of 
those sites, Rocky Flats, Mound, and Fernald, will close on or ahead of 
schedule. The vision and support that Congress provided planted the 
seeds of success in the cleanup program and we have already begun 
harvesting those fruits.
    Nonetheless, success at other sites in the EM program remained 
elusive. Year after year, it continued to take longer and cost more to 
complete the cleanup and we slowly devolved into a program that 
promised little and delivered even less. By the end of fiscal year 
2001, the environmental cleanup program stood as one of the largest 
liabilities of the Federal government.
    Last year, as ordered by Secretary Abraham, the Department 
completed a Top-to-Bottom Review of its cleanup program and concluded 
that significant change was required in how the Department attacked 
risk reduction and cleanup for the rest of its sites. Two years ago, as 
costs continued to increase, we estimated that it could take over $300 
billion and nearly 70 more years to complete cleanup--20 years longer 
than the actual operations of our oldest facilities and 25 times longer 
than the actual construction of our most complex facilities. We 
concluded that a fundamental change to how we approached, managed, and 
performed the entire cleanup program was required. Last year I started 
the effort to reform this massive program, and while our most daunting 
challenges still lie in front of us, we are now focused, moving in the 
right direction. The accelerated cleanup program has started to build 
momentum.
    Today the EM program is still very much a defense liability, 
responsible for many tons of special nuclear material in the form of 
plutonium and enriched uranium, which would make it one of the world's 
largest nuclear super-powers. In addition, the EM program is 
responsible for safely disposing of 88 million gallons of radioactive 
liquid waste, 2,500 metric tons of spent nuclear fuel, 135,000 cubic 
meters of transuranic waste, and well over 1 million cubic meters of 
low level waste. I ask the Committee to stay with us as we continue our 
quest to eliminate risks posed by these materials at a pace few of us 
could have ever imagined.
    Since the completion of Secretary Abraham's Review, the estimated 
cost to complete the cleanup program has decreased by over $30 billion 
and the time to complete will be shortened by 35 years. This means that 
the risks to our workers, our communities, and the environment will be 
eliminated a generation earlier than the previous plan. But I am not 
satisfied and neither should you. My goal is to accelerate risk 
reduction and cleanup and shorten this program even further while 
decreasing costs by more than $50 billion.
    In fiscal year 2004, President Bush is requesting a record $7.24 
billion for the accelerated cleanup program. The Administration's 
funding request continues the great progress we made last year with our 
regulators and communities. The Administration believes that this 
investment, which we expect to peak in fiscal year 2005, is crucial to 
the success of accelerated risk reduction and cleanup completion. We 
anticipate funding will then decline significantly to about $5 billion 
in 2008.
    The EM portion of the fiscal year 2004 Congressional budget 
contains some creative and innovative changes that are greatly needed 
to support our accelerated risk reduction and closure initiative. The 
first of these is a new budget and project baseline summary structure 
that focuses on completion, accountability, and visibility; 
institutionalizes our values; and integrates performance and budget. 
Requested funding can clearly be associated with direct cleanup 
activities versus other indirect EM activities. Second, where 
appropriate, we have limited the inclusion of line-item construction 
projects as activities for separate authorization and funding controls 
to facilitate timely and sensible tradeoff decisions that otherwise may 
not be possible. We solicit your support for this flexibility as we 
implement our accelerated cleanup strategies, with the understanding 
that improving project management remains a significant challenge for 
the Department. Third, this budget reflects the transfer of multiple 
activities that are not core to the accelerated cleanup mission to 
other Department elements. They include the transfer of INEEL landlord 
responsibilities to the Office of Nuclear Energy, Science and 
Technology, transfer of the long-term stewardship program to the new 
Office of Legacy Management, and several others.
    The Administration considers this program vitally important. We 
stand at an important crossroads in the cleanup program today--success 
is clearly within our reach, but so is failure. I believe the cleanup 
of the former nuclear weapons complex is far too important a matter to 
be left to chance. With your past assistance, we laid a solid 
foundation that is already showing signs of early success. Moving 
forward, we need your continued support to achieve success.

                        A YEAR OF TRANSFORMATION

    Last year at this time, the Top-to-Bottom Review had been recently 
released, citing recommendations to quickly improve performance. I wish 
to take a moment to recap the recommendations and update you on our 
progress in remedying these weaknesses.
    Improve DOE's Acquisition Strategy and Contract Management.--A key 
conclusion of the Top-to-Bottom Review was EM's contracting approach 
was not focused on accelerating risk reduction and applying innovative 
cleanup approaches. Processes for contract acquisition, establishment 
of performance goals, funding allocation, and government oversight were 
managed as separate, informally related activities rather than as an 
integrated corporate business process. Contracting strategies and 
practices made poor use of performance-based contracts to carry out 
EM's cleanup mission. The Top-to-Bottom Review Team recommended that 
all current performance-based contracting activities be reviewed and, 
where necessary, restructured to provide for focused, streamlined, and 
unambiguous pursuit of risk reduction.
    Move EM to an Accelerated, Risk-Based Cleanup Strategy.--EM's 
cleanup strategy was not based on comprehensive, coherent, technically 
supported risk prioritization--another important observation cited by 
the Review team. The program was implementing waste management 
practices and disposition strategies costing millions without providing 
a proportional reduction in risk to human health and the environment. 
Cleanup work was not prioritized to achieve the greatest risk reduction 
at an accelerated rate. Interpretation of DOE Orders and requirements, 
environmental laws, regulations, and agreements had created obstacles 
to achieving real cleanup benefiting neither human health nor the 
environment. Resources were diverted to lower-risk activities. Process, 
not risk reduction, had become the driving force. The Review 
recommended that DOE initiate an effort to review DOE Orders and 
requirements as well as regulatory agreements, and commence discussions 
with states and other regulators with the goal of accelerating risk 
reduction.
    Align DOE's Internal Processes to Support an Accelerated, Risk-
Based Cleanup Approach.--The Review found DOE's own internal processes 
inconsistent with a risk-based cleanup approach. The hazards at the DOE 
sites and the liability associated with them did not appear to dictate 
the need for urgency in the cleanup decisions. The Review team 
emphasized that the EM mission cannot be accomplished by continuing 
business as usual. Immediate actions in all elements of the EM program 
would need to be taken to transform DOE's processes and operations to 
reflect the new accelerated risk-based cleanup paradigm.
    Realign the EM program so its scope is consistent with an 
accelerated, risk-based cleanup and closure mission.--The Review team 
underscored the necessity that EM should redirect, streamline, or cease 
activities not appropriate for accelerated cleanup and closure. A 
laser-like focus on the core mission was needed to realize the cleanup 
of the Cold War legacy in our lifetime. Though many of these non-core 
activities may be worthy of DOE or federal government support, a 
reassessment of the relevance of non-related or supporting missions was 
warranted to focus the EM program. The financial and administrative 
resources required for EM implementation and oversight of these 
activities represent a major commitment for EM.
    In response to the Review's recommendations we have:
    Developed and are implementing a new acquisition strategy.--In the 
area of acquisition strategy and contract management, we have not been 
idle. We are aggressively using and managing the acquisition process as 
one tool to drive contract performance. We are evaluating both the 
performance and design of every contract in this program and as 
opportunities become clear we are making corrective action. One example 
of our progress is the December 2002 award of a new contract for the 
cleanup and closure of the Mound site. The whole process, which 
required changes in DOE's internal business practices, was accomplished 
in just 6 months from time of the issuance of the Request for Proposals 
(RFP) to the awarding of the contract. Another example is at Oak Ridge, 
where we are transforming the cleanup contract into a closure contract 
with a one-year demonstration period to further our overall cleanup 
goals. Changing this contract arrangement will accelerate cleanup work 
by 5 years and save $1 billion over the life of the program at the 
site.
    But that is just the tip of the iceberg. I envision a broader 
overhaul of EM's entire acquisition process, including our methodology 
for formulating acquisition strategy, developing RFPs, identifying 
performance-based incentives, and providing oversight of contractor 
performance. We are pursuing a path to both increase competition by 
enlarging the pool of potential contractors competing for our work and 
increase the accountability of our contractors to deliver real, 
meaningful cleanup. Our acquisition strategy focuses on five areas. 
First, we are ``unbundling'' work into smaller packages where it makes 
sense. Second, we are driving innovation and improved cost performance 
through the use of small and smaller businesses, complementing the 
unbundling strategy. Third, we are actively promoting innovation in our 
cleanup work through the competitive process where improved performance 
is required. Fourth, we are extending or modifying contracts where 
excellent performance has been clearly demonstrated. Fifth, we are 
modifying and changing our acquisition processes to support these 
strategies in order to allow them to be successfully implemented.
    To complement these steps, we have launched a Contract Management 
Review Board to review our contracts from a more corporate perspective. 
Our goal is to ensure that the lessons learned, both good and bad, from 
all our endeavors are institutionalized into our contracts and business 
practices and that we suspend those contract philosophies that do not 
support accelerated risk reduction and cleanup of our sites.
    Established 10 special project teams to carve new innovative paths 
for accelerated cleanup and risk reduction.--The Top-to-Bottom Review 
identified unfocused and inconsistent work planning processes as the 
principal contributors to EM's uncontrolled cost and schedule growth. 
To address this failing, I formed ten special corporate projects, each 
assigned a specific strategic objective. Each team is formulating 
corporate level initiatives to accelerate risk reduction in a much 
improved, more cost-effective manner. Objectives include contracting, 
high-level waste, and consolidation of Special Nuclear Material. Each 
of the special projects has a dedicated project manager, supported by 
an integrated project team, to identify, plan, and execute needed 
changes in the EM program. These project teams, using project 
management principles, are key to correcting our work planning 
processes and instilling rigor into our internal management decisions.
    Meaningful, lasting reform must be the result of leadership and 
commitment but it must find its way into the very core of the 
organization to be sustained. Building a high-performing culture 
requires attracting and retaining talented people who deliver 
excellence in performance. Improving management efficiencies requires 
that organizations challenge, hold accountable, and reward top-
performing employees. This corporate initiative does just that. These 
ten teams will herald a new standard of performance, innovation, and 
greater results for the EM program. Our goal is not just to establish 
performance-based contracts but to solidify a performance-based program 
for all who choose to have a role.
    Implemented a strict configuration management system.--Another 
reform we have implemented is a strict configuration management system 
that baselines a number of key, critical program elements. Examples of 
some of the key elements include the Performance Management Plans, EM 
corporate performance metrics, contract performance measures/
incentives, and life-cycle costs. Strict change control and monitoring 
of these key elements will facilitate a high confidence level that the 
goals and direction of the accelerated cleanup initiative are being 
met.
    In October 2002, EM established several new corporate performance 
measures for the program. EM will continue to track corporate measures 
such as the number of geographic sites completed, the amount of 
transuranic waste disposed, and the number of plutonium metal/oxides 
packaged. However, new corporate measures such as the volume of liquid 
waste in inventory eliminated, number of liquid waste tanks closed, 
number of enriched uranium containers packaged, and amount of depleted 
and other uranium packaged are a key part to the successful execution 
of EM's accelerated cleanup strategies. In addition, EM is establishing 
site resource-loaded baselines that will enable the program to 
comprehensively track progress against its accelerated risk reduction, 
cost, and schedule objectives. The establishment of these new 
performance measures and a rigorous configuration management system are 
resulting in clear lines of accountability for what is expected. With 
this critical tool, EM is now able to make crucial corporate decisions 
that will keep the program on track, control cost increases, and 
minimize schedule growth.
    Identified work activities that directly support accelerated 
cleanup from those that do not.--A key finding of the Top to Bottom 
Review was that EM was supporting and managing several types of 
activities that may not be appropriate for an accelerated risk-
reduction and cleanup program. In that light, I took a hard look at 
those activities and, while they may be of importance to the Department 
and the Federal government, they may not be best aligned in the EM 
program. Based on that assessment, for fiscal year 2004, the following 
identified program elements were not included in the EM budget but, 
because of their importance to the Department, have been transferred to 
other DOE organizations with which they are more appropriately aligned. 
They represent activities that are not part of the core accelerated 
risk reduction and closure mission.
  --Environmental Management staff at the National Energy Technology 
        Laboratory transferred to the new Office of Legacy Management.
  --The Analytical Services Program transferred to the Office of 
        Environment, Safety and Health.
  --The Radiological and Environmental Sciences Laboratory transferred 
        to the Office of Environment, Safety and Health.
  --Pre-existing liabilities and long-term contractor liabilities 
        transferred to the Office of Legacy Management.
  --The Long-term Stewardship Program transferred to the Office of 
        Legacy Management.
    In addition, landlord responsibilities for the Idaho National 
Engineering and Environmental Laboratory were transferred to the Office 
of Nuclear Energy, Science and Technology to reflect the site's major 
mission realignment.
    Revitalized our human capital strategy.--Another key management 
reform is the human capital revitalization that strongly supports the 
President's Management Agenda. This reform focuses on building a high-
performing culture that attracts and retains talented managers and 
staff to deliver sustained performance excellence. We have built a more 
robust performance accountability system that holds each manager and 
employee accountable for actions and results and rewards them 
accordingly. Individual performance management is being fully 
integrated into EM organizational goals; executives are being held 
accountable for achieving strategic program objectives, fostering 
innovation, and supporting continuous improvement.
    We are implementing an executive mentoring program with our senior 
executives with the objective of having a cadre of executives who are 
well-rounded and are prepared to effectively lead irrespective of the 
position to which they might accrue. We are becoming a flatter and more 
effective organization with a goal to have an organizational structure 
that is clearly aligned to deliver on our accelerated risk reduction 
and closure initiative.
    Aligned tangible, consequential results to resources with this 
budget request structure.--Given all these changes and advances, the 
budget request before you is one of the most crucial. This budget 
request structure is the foundation for budget planning and execution 
of the accelerated risk reduction and closure initiative. This new 
structure clearly identifies scope and resources that directly support 
the core accelerated cleanup and risk reduction mission from those that 
do not. The new structure consolidates risk reduction and completion 
activities into only two appropriations (defense and non-defense) in 
addition to the existing Uranium Enrichment Decontamination and 
Decommissioning Fund. This structure removes barriers to facilitate 
better resource utilization and segments accelerated completion into 
three distinct accounts to highlight accountability.
    In addition, implementation of this new structure will complement 
other management reform initiatives by focusing on completion or 
endpoint, clearly delineating how resources will be utilized (i.e., for 
direct cleanup activities or for other activities in the program that 
only indirectly relate to on-the-ground cleanup activities), and 
communicating the goals and objectives that we value. Last, but not any 
less important, this new structure will support integration of 
performance and budget for the EM program.

                  THE FISCAL YEAR 2004 BUDGET REQUEST

    The fiscal year 2003 budget was a transitional budget in which 
management reforms were developed and significant efforts were put 
forth to improve performance, accelerate cleanup, and reduce risk. The 
strategic groundwork has been laid, and the EM program is moving 
forward with its risk reduction and cleanup strategies. The investment 
we have requested in our fiscal year 2004 budget will keep EM's new 
accelerated risk reduction and cleanup strategies on track.
    The EM fiscal year 2004 budget request has been tailored to meeting 
our mission of accelerated risk reduction and completion. This budget 
fully reflects each site's new accelerated risk reduction and cleanup 
strategies. The fiscal year 2004 budget request is a major step toward 
aligning performance with the resources needed to expedite risk 
reduction and cleanup.
    The 2004 budget request for EM activities totals $7.24 billion to 
accelerate risk reduction and closure. The request includes five 
appropriations, three of which fund on-the-ground, core mission work, 
and two of which serve as support. The five appropriations and 
associated requested funding are:
  --Defense Site Acceleration Completion ($5.8 billion)
  --Defense Environmental Services ($995 million)
  --Non-Defense Site Acceleration ($171 million)
  --Non-Defense Environmental Services ($292 million)
  --Uranium Enrichment Decontamination and Decommissioning Fund ($418 
        million)
    Through the implementation of accelerated cleanup strategies, the 
EM program anticipates that cleanup will be completed by 2035, at least 
35 years earlier than originally anticipated, with the potential of 
life-cycle savings of greater than $50 billion.
    In building the request, the Department applied the following 
principles and priorities:
    Protect workers, public, and the environment.--The budget request 
continues to place the highest priority on protecting workers, the 
public, and the environment. The implementation of new cleanup 
strategies will allow for an overall improvement in safety and 
reduction in risk because cleanup will be completed sooner, reducing 
the extent to which workers, the public, and the environment have the 
potential to be exposed.
    Ensure the appropriate levels of safeguards and security.--Due to 
heightened security levels throughout the nation, it is crucial that we 
maintain vigilance in our domestic security to protect our citizens. 
The EM program is responsible for many tons of surplus nuclear 
material. This budget request reflects our increased safeguards and 
security needs. In particular, the sites with the largest funding needs 
are Savannah River and Hanford. Savannah River's increase in funding 
supports protective force staffing for the HB Line Category 1 Process 
and plutonium stabilization activities, perimeter improvements, 
maintenance on security systems, vulnerability assessments, and Capital 
and General Plant Project upgrades. Hanford's increase in funding 
supports updates to the Critical Facility Vulnerability Assessment, 
additional security employees for Waste Treatment and Immobilization 
Plant construction, security clearance processing, drug testing, and 
accelerated movement of special nuclear material to Savannah River and/
or the Grout Facility.
    Reduce risk methodically.--Accelerated risk reduction requires a 
pragmatic approach to cleanup based on real risk reduction. Risk 
reduction occurs in various stages, which involve the elimination, 
prevention, or mitigation of risk. Because safe disposal of many 
materials will take a number of years to complete, our major focus of 
risk reduction is stabilization of high-risk materials.
    The following categories of materials are considered to pose the 
highest risk:
  --High-curie, long-lived isotope liquid waste
  --Special nuclear materials
  --Liquid transuranic (TRU) waste in tanks
  --Sodium bearing liquid waste in high-level waste tanks
  --Defective spent nuclear fuel in water basins
  --Spent nuclear fuel in leaky or poor water chemistry basins
  --High TRU waste content (greater than 100 nanocuries/gram)
  --TRU waste stored on the surface
  --Remote-handled (RH) TRU waste
  --Decontamination & Decommissioning of highly contaminated facilities
    Although all of these items are to be considered when setting 
priorities, their relative ranking may vary from site to site. For 
example, the following sites have planned activities/milestones for 
fiscal year 2004 that correspond to their site-specific risk 
categories.

Hanford
  --Close 6 single-shell tanks; the first tanks closed at the site.
  --Complete interim stabilization of Hanford single-shell tanks, which 
        completes removing all pumpable liquids from single-shell 
        tanks.
  --Complete 30 percent of the Hanford Waste Treatment and 
        Immobilization Plant.
  --Complete stabilization of plutonium metals, oxides, and residues.
  --Complete removal of all spent fuel from the K Basins and place in 
        dry storage in the Canister Storage Building.
Idaho
  --Complete the transfer of spent nuclear fuel in the Power Burst 
        Facility canal from wet storage to dry storage at the Idaho 
        Nuclear Technology and Engineering Center.
  --Ship off-site a total of 1,819 kg total uranium (leaving a 
        remainder of 825 kg).
  --Begin the transfer of EBR-II spent nuclear fuel from the Chemical 
        Processing Plant to the Argonne National Laboratory--West for 
        treatment and disposition as an interim step to removing all EM 
        spent nuclear fuel from wet storage.
  --Support treatment of sodium-bearing waste: complete conceptual 
        design activities for the sodium bearing waste treatment 
        project, initiate preliminary design on primary technology, and 
        complete Sodium Bearing Waste Treatment Facility Critical 
        Decision 1 documentation; and complete characterization of 
        remaining liquids and solids in the 11 underground tanks.

Rocky Flats
  --Remove and ship remaining plutonium metals, oxides, and residue.
  --Begin stabilization and hazard removal in two TRU waste buildings.

Savannah River
  --Permanently close tanks 18 and 19, completing the closure of the 
        first tank grouping.
  --De-inventory spent nuclear fuel from the Receiving Basin for Off-
        site Fuels.
  --Complete treatment of the aqueous portion of the plutonium-uranium 
        extraction (PUREX) waste at the Saltstone Facility.
  --Produce 250 canisters of vitrified high-level waste.
    Accelerate cleanup results.--To accelerate cleanup, 18 sites have 
developed Performance Management Plans (PMPs), which identify 
strategies, end states, end dates, key milestones, and commitments that 
facilitate accelerated cleanup and site closure. These PMPs were 
developed in collaboration with our state and federal regulators.
    For fiscal year 2004, several examples of sites' milestones for 
accelerated cleanup are:

Brookhaven National Laboratory
  --Submit Brookhaven Graphite Research Reactor Draft Record of 
        Decision to our regulators to determine the final end-state for 
        Brookhaven Graphite Research Reactor.
  --Complete construction of the Airport/Long Island Power Authority 
        Groundwater Treatment System.

Hanford
  --Complete cocooning of the H Reactor.
  --Complete excavation/removal of 100 B/C Process Effluent Pipeline.
  --Dispose of 500,000 tons of remediation waste from waste sites and 
        burial remediations in the Environmental Restoration Disposal 
        Facility.

Idaho
  --Begin shipment of RH TRU waste offsite (6-year acceleration) 
        supporting completion of shipments by 2012.
  --Complete cleaning and grouting of second pillar and panel vaulted 
        tank, supporting acceleration of tank farm facility closure by 
        4 years to 2012.

Lawrence Livermore National Laboratory--Livermore Site
  --Construct, install, and operate a new treatment system to address 
        groundwater contamination.

Los Alamos National Laboratory
  --Permanently dispose of over 600 cubic meters of legacy TRU waste 
        through an integrated strategy of segregating, decontaminating, 
        and shipping to the Waste Isolation Pilot Plant (WIPP).
  --Complete shipment of 2,000 drums and initiate retrieval of legacy 
        TRU waste stored below grade.

Nevada Test Site
  --Complete remediation of 55 release sites.
  --Continue to dispose of low-level waste from complex-wide generators 
        in support of closure of other EM sites.
  --Continue characterization and shipments of TRU waste to WIPP.

Oak Ridge
  --Complete East Tennessee Technology Park K 29/31/33 decommissioning 
        for re-use (one-year acceleration), supporting closure of the 
        site 8 years earlier than planned.
  --Complete Molten Salt Reactor Experiment flush salt removal, and 
        complete fuel salt removal from the first of two drain tanks.

Pantex
  --Continue pump and treatment of the perched groundwater and 
        evaluation of more efficient cleanup technologies to mitigate 
        the contaminated plume.
  --Complete demolition of Zone 10 ruins and initiate actions for the 
        demolition of Building 12-24 Complex.

Savannah River
  --Eliminate low-level waste legacy inventory.
  --Complete major remediation projects in the testing and experimental 
        areas.

WIPP
  --Increase carrier capacity from 25 to 34 shipments of TRU waste per 
        week.
  --Procure 11 RH trailers for a total of 14.
  --Complete TRUPACT-II (a transportation container to safely transport 
        either TRU waste or standard waste boxes) fabrication to obtain 
        fleet of 84 TRUPACTs.
    Maintain closure schedules.--Three major sites, Rocky Flats, 
Fernald, and Mound, have accelerated closure schedules. In addition, 
two smaller sites, Ashtabula and Battelle-Columbus are scheduled to 
close in 2006. Funding in the fiscal year 2004 budget will allow these 
sites to remain on track toward project completion and site closure.
    At Rocky Flats, fiscal year 2004 funding provides for:
  --Disposing of more than 109,000 cubic meters of low and mixed low 
        level waste.
  --Disposing of more than 8,600 cubic meters of TRU waste (70 percent 
        complete).
  --Completing the decontamination and decommissioning of 72 work sets 
        in Buildings 371, 717, 771, and 776.
  --Cleaning 194 environmental release sites (81 percent complete).
    At Fernald, fiscal year 2004 funding provides for:
  --Treatment and shipment offsite of 150,000 tons of waste pit 
        material, which cumulatively represents approximately 80 
        percent of the total.
  --Construction completion of Silos 1, 2, and 3 retrieval facilities.
  --Completion of D&D of Plant 1 Complex Phase II, Liquid Storage 
        Complex Phase II, and Pilot Plant Complex.
    At Mound, fiscal year 2004 funding provides for:
  --Continued removal of high concentrations of tritium from Tritium 
        Effluent Reduction Facility to allow for early shutdown.
  --Completion of soil excavation phase of Potential Release Site 66 
        and completion of the total remediation of Potential Release 
        Sites 68 and 267. These three Potential Release Sites represent 
        38 percent of the total soil remediation remaining.
    At Ashtabula, fiscal year 2004 funding provides for:
  --Complete disposal of 100 percent of building remediation debris 
        generated in fiscal year 2003.
  --Initiation of excavation and shipment of remaining estimated known 
        scope (i.e., 38,000 tons) of contaminated soil to a licensed 
        disposal site.
    At Battelle-Columbus, fiscal year 2004 funding provides for:
  --Demolition of buildings JN-2 and JN-3.
    Integrate technology development and deployment.--An integrated 
technology development and deployment program is an essential element 
for successful completion of the EM cleanup effort and for fulfilling 
post-closure requirements. The EM Technology Development and Deployment 
(TDD) program provides technical solutions and alternative technologies 
to assist with accelerated cleanup of the DOE complex.
    Through the fiscal year 2004 budget, EM technology development and 
deployment investments are focused on high-payoff site closure and 
remediation problems through a two pronged approach: Closure Projects 
and Alternative Projects.
    Closure Projects.--Principal near term closure sites (such as Rocky 
Flats, Fernald, and Mound) will be provided with technical support and 
quick response, highly focused technology development and deployment 
projects. The goal is to ensure that accelerated site closure schedules 
are achieved.
  --At Rocky Flats and the Ohio closure sites, technical assistance 
        teams will assess critical technical issues and provide 
        technology alternatives including the treatment and disposition 
        of orphaned waste streams.
  --At Mound, innovative technologies will be developed to determine 
        and enable treatment of radioactive contaminated soil beneath 
        buildings.
  --At Fernald, the vacuum thermal desorption demonstration will be 
        completed to provide a technical solution for an orphaned waste 
        stream.
    Alternative Projects.--Alternative approaches and step improvements 
to current high-risk/high cost baseline remediation projects are our 
second focus. The goal is to enable cleanup to be accomplished safely, 
at less cost, and on an accelerated schedule. EM is focusing funds for 
fiscal year 2004 on:
  --Alternatives for Tank Waste Immobilization;
  --Alternatives for Carbon Tetrachloride Source Term Location;
  --Alternatives for Remediation of Leaked High-Level Waste Below 
        Tanks;
  --Alternatives for Disposition of High-Level Salt Waste;
  --Alternatives for Immobilization of High-Level Sludge Waste;
  --Alternatives for Remediation of Chlorinated Ethenes Using Monitored 
        Natural Attenuation;
  --Alternatives for Deposit Removal at Gaseous Diffusion Plants;
  --Alternatives for Cleanup of Trichloroethylene under Buildings 
        (Paducah); and
  --Alternatives for Expedited Processing of Scrap Metal/Equipment.
                               conclusion
    We planted the seedlings of transformation one year ago. We have 
fostered and guided the reforms. New ideas and breakthroughs have grown 
from looking beyond the paradigm of risk management to the new focus of 
accelerated risk reduction and cleanup. New strategies and plans are 
thriving.
    We are experiencing the realization that for the first time, the 
goal of completing EM's mission is within our grasp. We have set into 
motion a reformed cleanup program--one designed and managed to achieve 
risk reduction not just risk management; to shift focus from process to 
product; and to instill the kind of urgency necessary to clean up and 
close down the nuclear legacy of the Cold War and to protect human 
health and the environment.
    We are at a turning point for this program. We must not lessen our 
resolve. I ask for your support to continue this important work. We 
must avoid passing this intolerable inheritance to our children. 
Accelerating cleanup by at least 35 years and saving over $50 billion 
is a wise investment for our children's future.
    I look forward to working with Congress and others to achieve this 
goal. I will be happy to answer questions.

    Senator Domenici. Thank you very much. Dr. Chu.

            Office of Civilian Radioactive Waste Management

STATEMENT OF MARGARET S.Y. CHU, DIRECTOR
    Dr. Chu. Mr. Chairman Domenici, Senator Reid and Senator 
Cochran, as the Director of the Department of Energy's Office 
of Civilian Radioactive Waste Management I appreciate this 
opportunity to appear before you today. I have a more detailed 
statement, and with your permission I will submit it for the 
hearing record.
    One year ago, I had the privilege of becoming the fifth 
appointed director of this office and the first one since the 
President and the Congress approved Yucca Mountain as the site 
to be licensed and developed as the world's first repository 
for spent nuclear fuel and high-level waste.
    In assuming the director's position at that critical time, 
I realized that I had four significant challenges: First, to 
transition the Federal and contractor organization from a focus 
on-site investigation to an enterprise with the culture of 
nuclear safety essential to obtain a license from the Nuclear 
Regulatory Commission and successfully construct and operate a 
repository.
    Second, to work with the Congress in developing the means 
of assuring stable funding needed to meet the formidable 
schedule for the licensing and development of the repository.
    Third, to create a safe and secure transportation 
infrastructure needed to move nuclear waste and spent fuel from 
over 100 locations across the United States.
    And finally, to challenge our scientists and engineers to 
find new and creative ways to enhance the operational safety 
and certainty and reduce the life cycle cost of the program.
    The President's fiscal year 2004 budget request reflects 
these changes I have implemented, and I appreciate the 
opportunity to present it to you today. With the formal 
designation of Yucca Mountain last year, our office prepared a 
detailed plan that will allow us to submit the license 
application by December 2004 and to begin placing waste in a 
licensed repository in 2010.
    Both the Continuing Resolution and the reduction of $134 
million from our fiscal year 2003 request will force us to 
reduce, eliminate, or defer some of the work we had planned, 
thus significantly increasing the risk of not meeting our 
program goals. We are currently finalizing our analysis of the 
impacts and will provide you with more detailed information 
after we have completed consulting with the Department.
    The schedule is extremely tight, and delays are costly to 
our Government and more importantly the American taxpayers. For 
every year of delay beyond 2010 the cost of storing and 
handling just defense waste is estimated to increase by $500 
million, and this figure does not include potential claims for 
damages resulting from the Government's failure to accept 
commercial spent nuclear fuel since 1998.
    In the President's fiscal year 2004 budget, we have 
requested $591 million for the program. As importantly, the 
administration will propose, in discussion with the Congress, a 
discretionary budget cap adjustment for the Yucca Mountain 
program as a provision to the Budget Enforcement Act 
reauthorization.
    Beyond fiscal year 2004 our program will need significantly 
increased funding for the design, construction, and operation 
of the repository, as well as the transportation 
infrastructure. This proposed cap adjustment will allow the 
Appropriations Committee to provide sufficient funding for the 
program's needs without adversely affecting other priorities. 
This will provide us with a greater certainty of funding and 
ensure the proper and cost-effective planning and acquisition 
of capital as that is required for such a major capital 
project.
    I now would like to provide you with some highlights of our 
fiscal year 2004 request. We will focus most of these funds and 
efforts on completing and submitting a license application to 
the NRC and accelerating work on developing a national and a 
Nevada transportation system. Let me briefly discuss these 
efforts.
    The repository development activities constitute over 70 
percent of our funding request. The main focus will be on 
completing the technical product required for a license 
application. As part of the license application preparation we 
will respond to key technical issues agreed upon between DOE 
and NRC, complete required elements of the design for the waste 
package surface and subsurface facilities, complete a 
preclosure safety analysis, and then a post-closure performance 
assessment of the repository system.
    In addition, all of the documents from years of scientific 
studies that support a license application must be loaded into 
an electronic web-based licensing support network and be 
certified at least 6 months before the license application is 
submitted.
    Also, as part of the repository development, I am 
requesting $25 million for a new cost-reduction and systems-
enhancement program. This program is focused on improving 
existing technologies and developing new ones to achieve 
efficiencies and savings and to increase our confidence in the 
long-term performance of the repository. Funding of this 
program will play a key role in our current efforts and also 
achieve near-term cost savings and reduce the total system life 
cycle cost.
    For the transportation activities we are requesting $73 
million. We will begin the initial procurement of the cask 
fleet and place orders for long lead-time casks and equipment. 
Additionally, we will prepare for acquisition of 
transportational logistics services and assess other needs. 
Requested funding also supports greater interactions and 
dialogues with regional State and local organizations to 
address important transportation issues such as emergency 
response.
    Of the $73 million requested in the transportation program, 
about a quarter will be used to examine the development of a 
Nevada rail line to the repository. If a decision is made to 
pursue rail transportation, the Department must carefully 
analyze the environmental impacts of constructing a rail line 
within a particular corridor. Pending the outcome of this 
process, we will begin conceptual design activities, conduct 
field surveys, and pursue obtaining right-of-way. We will also 
continue to assess the viability of other transportation modes.

                           PREPARED STATEMENT

    These are the highlights of the 2004 fiscal year budget for 
my office. In conclusion, our program is a key element of the 
Department's and the administration's efforts to advance energy 
and national security, contribute to homeland security, and 
honor our environmental commitments. We now have the unique and 
historic opportunities for moving far closer to solving the 
nuclear waste problem by beginning, hopefully in less than 8 
years, to move waste underground in the world's first licensed 
geological repository. I urge your support for our budget 
request and look forward to working with you on this vital 
national issue.
    I would be pleased to take any questions that the committee 
has.
    Thank you.
    Senator Domenici. Thank you. Your statement will be made a 
part of the record.
    [The statement follows:]

              Prepared Statement of Dr. Margaret S.Y. Chu

    Mr. Chairman and members of the Committee, I am Margaret Chu, 
Director of the Department of Energy's Office of Civilian Radioactive 
Waste Management. I appreciate the opportunity to present our fiscal 
year 2004 budget request and discuss our plans to license, build and 
operate a geologic repository at Yucca Mountain, Nevada, and our 
efforts to develop the transportation system needed to deliver the 
nuclear waste to the repository.
    The mission of the Civilian Radioactive Waste Management Program is 
to implement our Nation's radioactive waste management policy. The 
policy, as established by the Nuclear Waste Policy Act of 1982, as 
amended, requires permanent geologic disposal of commercial spent 
nuclear fuel and high-level radioactive waste resulting from the 
Nation's atomic energy defense activities. This waste must be safely 
isolated to protect human health and the environment. The disposal of 
this waste in a geologic repository is also required to maintain our 
energy options and national security, to allow a cleanup of our weapons 
sites, to continue operation of our nuclear-powered vessels, and to 
advance our international non-proliferation goals. The Department's 
consolidation of spent nuclear fuel, and high-level waste from 131 
sites in 39 States and the safe disposal of them at Yucca Mountain is 
vital to our national interest.
    The Program made significant progress in fiscal year 2002 toward 
implementing the national radioactive waste management policy. In 
February, the Secretary of Energy completed his review of our site 
characterization work and recommended the site to the President. This 
past summer, on July 9, 2002, Congress demonstrated its continued 
support for a geologic repository by approving Yucca Mountain as a 
suitable site for repository development, Public Law 107-200. The 
President signed this bill on July 23, 2002. As a result, the Program 
is focusing its near-term efforts on seeking a license to construct a 
Yucca Mountain repository from the Nuclear Regulatory Commission (NRC). 
We thank you for your strong bipartisan support of this important 
effort.

                           THE 2010 OBJECTIVE

    The Program's key objective remains to begin receiving and 
emplacing waste at a NRC licensed Yucca Mountain repository in 2010. To 
achieve that objective the Program must, in less than eight years, seek 
and secure authorization to construct the repository, begin 
constructing the repository, receive a license to operate the 
repository, and develop a transportation system to take waste from 
civilian and defense storage sites and ship it to the repository. That 
is an extremely tight schedule.
    To construct a repository by 2010, the Program must have a 
construction authorization no later than 2007. To have that authority 
by 2007, the Program must submit a high quality and defensible license 
application no later than 2004 since the NRC will require at least 
three years to consider the application. And because we have deferred 
critical work on transportation in the past, we must begin an 
accelerated effort to develop the transportation system.
    Meeting the 2010 objective will also require far greater resources 
than the Program has thus far received. We estimate, for example, that 
it will cost about $8 billion--more than 80 percent of the budget 
required to meet the 2010 objective--to construct the repository and 
develop the transportation system. That would average more than $1 
billion a year--much higher than our previous annual appropriations.

                  THE FISCAL YEAR 2004 BUDGET REQUEST

    Our budget request for fiscal year 2004 is $591 million. The 
Program will not be able to meet the 2010 objective should funding fall 
below this level. The schedule, as I have said, is extremely tight and 
delay is costly. For every year of delay beyond 2010, the cost of 
storing and handling Departmental defense wastes alone is estimated to 
increase by $500 million. Regarding the nuclear utilities, the 
government's liability for damages for not beginning to take commercial 
spent fuel in 1998 already has been established by court decisions. 
While an accurate calculation of damages must await determinations by 
the courts, it is not unreasonable to assume that the amount of damage 
will be significant and will increase with each year of delay.
    To set the stage for our fiscal year 2004 budget request I would 
like to briefly describe our fiscal year 2002 accomplishments, our 
ongoing activities based on our fiscal year 2003 appropriation, and our 
goals for fiscal year 2004.

                    FISCAL YEAR 2002 ACCOMPLISHMENTS

    Yucca Mountain.--The Program completed nearly 20 years of site 
characterization activities investigating the natural processes that 
could affect the ability of a repository built underneath Yucca 
Mountain to isolate radionuclides from spent nuclear fuel and high-
level radioactive waste. These investigations showed that a repository 
at Yucca Mountain can provide the reasonable expectation required by 
the NRC that public health and safety, and the environment will be 
protected. The underlying basis for our investigations and engineering 
designs has withstood many independent scientific peer-reviews and 
thorough examination by national and international oversight 
organizations. Our site characterization investigations and analyses 
clearly demonstrate that a repository within Yucca Mountain will meet 
the Environmental Protection Agency's site specific standards.
    The Department also developed a Final Environmental Impact 
Statement for a Geologic Repository for the Disposal of Spent Nuclear 
Fuel and High-Level Radioactive Waste at Yucca Mountain, Nye County, 
Nevada. During preparation of the Environmental Impact Statement, the 
Department held 66 public hearings in counties in the vicinity of Yucca 
Mountain to inform residents of the area of the possible recommendation 
and to gather their views and comments.

                  FISCAL YEAR 2003 ON-GOING ACTIVITIES

    With the formal designation of Yucca Mountain as the site for 
repository development, the Program prepared a conceptual design and a 
detailed plan for repository licensing, construction, and operation. 
The goals of this plan are to submit the license application to the 
Nuclear Regulatory Commission by December 2004, and to begin receiving 
waste at Yucca Mountain in 2010. Our fiscal year 2003 and fiscal year 
2004 budget requests were consistent with this plan. The limited 
funding provided during the continuing resolution, which was 10 percent 
below our fiscal year 2002 level for the first 5 months of fiscal year 
2003 and the final fiscal year 2003 appropriation of $457 million, 
which is $134 million, or 22 percent below our request, required us to 
replan our activities. While we are trying to maintain the license 
application submittal date of December 2004, some important planned 
work must be reduced, eliminated or deferred, thus significantly 
increasing the risk that we will be unable to meet our Program goals. 
Our request for fiscal year 2004 is essential if the Department is to 
prepare a defensible license application for submission in 2004 and 
meet our other Program goals.
    The Administration also plans to submit a proposal to withdraw 
permanently from settlement, sale, location or entry under some or all 
of the general land laws certain lands comprising and contiguous to the 
Yucca Mountain geologic repository operations area. It is necessary to 
initiate this proposal now in order to ensure that we satisfy Nuclear 
Regulatory Commission licensing requirements and maintain the 
territorial integrity, security and isolation of the site.
    Yucca Mountain.--The Program is now focusing its efforts on 
completing our license application to the NRC for authority to 
construct the repository. By the end of fiscal year 2003, the Yucca 
Mountain Project expects to meet the following goals and objectives:
  --Advance the preliminary design of the repository surface and 
        underground facilities and waste package elements, beyond the 
        current conceptual design, sufficient for the development of 
        the license application.
  --Complete additional materials testing and analyses required to 
        support the license application design for waste package, 
        surface and subsurface facilities.
  --Complete testing data feeds for the Total System Performance 
        Assessment Postclosure Report in the license application.
  --Initiate the development of selected license application chapters 
        and sections, currently estimated at approximately 10,000 pages 
        in total.
  --Process the majority of the Project records and technical documents 
        for inclusion into the licensing support network (numbering in 
        the millions of pages).
  --Implement management improvements identified in the President's 
        management agenda.
    Transportation Program.--With the fiscal year 2003 enacted 
appropriation, only very limited activities will be performed toward 
developing the transportation system, since resources will be focused 
on repository licensing activities. A number of critical steps toward 
developing a transportation system ready to ship waste in 2010 will be 
initiated. As the Department has promised, we will issue a National 
Transportation Strategic Plan by the end of this fiscal year. The plan 
will address policies, interactions with States, local and tribal 
governments, identify necessary activities and describe our approach to 
having an operational transportation system in place by 2010. We will 
complete the procurement strategy for waste acceptance and 
transportation services and equipment. We will write a concept of 
operations document and will evaluate transportation operating 
scenarios to guide the development of the transportation system. We 
will not be in a position to support the full-scale cask tests at 
Sandia National Laboratories proposed by the Nuclear Regulatory 
Commission.

                   PROGRAM MANAGEMENT AND INTEGRATION

    A Program whose objective is to begin constructing and operating a 
licensed repository and a transportation system in a relatively short 
period of time is very different from a Program whose objective is to 
investigate a site. It must be both structured and managed differently. 
And because budgets as well as demands and schedules are tight, it must 
be structured and managed both to meet the highest standards of 
performance and to be as efficient and cost-effective as possible.
    During this fiscal year, we have taken several initial steps to 
turn this program into a project-oriented organization that is focused 
on managing major capital projects efficiently and cost-effectively. 
Our organizational realignment in November 2002 created an Office of 
Repository Development, headed by the Deputy Director of OCRWM, and 
provided that organization with a substructure that will enable it to 
successfully manage the challenges of designing and licensing the 
repository. Through management improvement initiatives I have directed, 
we are meeting the commitments to the NRC to improve in five areas: to 
better define roles, responsibilities, authority and accountability; to 
strengthen our Quality Assurance program; to streamline procedures at 
the project; to enhance our Corrective Action Program; and to implement 
a Safety Conscious Work Environment that requires openness and 
identification of potential safety issues without fear of reprisal. 
These actions will better position us to be a successful NRC licensee 
and to meet mandated requirements for a safely operating repository.

                    FISCAL YEAR 2004 KEY ACTIVITIES

    As I indicated previously, the Office of Civilian Radioactive Waste 
Management Program's budget request is $591 million in fiscal year 
2004. This is essentially level with our original fiscal year 2003 
request, but $134 million below the enacted level. Out of our total 
budget, the amount requested for Yucca Mountain in fiscal year 2004 is 
$419 million. However, funding for Yucca Mountain under the fiscal year 
2003 enacted level is $109 million below the original fiscal year 2003 
request.
    The amount requested in fiscal year 2004 for National and Nevada 
Transportation activities increases from $10.4 million, fiscal year 
2003 enacted, to $73 million. However, our fiscal year 2003 enacted 
level is over $19 million below the original request. The significant 
increase in funding for National Transportation in fiscal year 2004 
will fund the procurement of long-lead transport casks and auxiliary 
equipment and accelerate operational capability. Funding for the 
acquisition of certain cask systems not under development by industry 
is necessary in fiscal year 2004 to allow the initiation of cask fleet 
procurement. This critical procurement will facilitate waste acceptance 
in the post-2010 time frame.
    A total of $18 million is required in fiscal year 2004 to initiate 
the development of a Nevada rail line from the national rail system to 
the Yucca Mountain repository. In fiscal year 2004, the program will 
initiate conceptual design activities, conduct environmental and 
geotechnical field surveys, and prepare a land acquisition case file 
required by Bureau of Land Management (BLM). Additionally, the 
Department will continue to assess the viability of other modes of 
transportation for shipments to the repository.
    Yucca Mountain.--Consistent with Departmental and Program 
objectives, the Yucca Mountain Project's main focus in fiscal year 2004 
will be on completing the technical products required for a license 
application for construction of the repository. The design, performance 
assessment, safety analyses, and technical data in the license 
application must be sufficient for the Nuclear Regulatory Commission to 
conduct an independent review and reach a decision to issue a 
construction authorization. The application must demonstrate that the 
repository can be constructed and operated with reasonable expectation 
that the health and safety of the public will be protected for at least 
10,000 years.
    The license application will include a description of site 
characteristics; waste package, repository surface and subsurface 
designs; the basis for development of operations and maintenance plans 
for surface and subsurface facilities; results of a preclosure safety 
analysis for the period prior to permanent closure; results of the 
total system performance assessment for the postclosure period; and a 
discussion of how the proposed waste package and repository will comply 
with applicable regulatory requirements. It also will include a 
discussion of the bases for development of safeguards, certification, 
and physical security plans and descriptions of the quality assurance 
program, test and evaluation plan for the development and operation of 
the repository, and required performance confirmation programs. The 
license application is expected to be approximately 10,000 pages. The 
documents referenced by or supporting the license application, in 
addition to other relevant documentary material, will be made available 
to the Nuclear Regulatory Commission in electronic format through a 
licensing support network. In accordance with the Nuclear Regulatory 
Commission's regulation, 10 CFR 2, Subpart J, the available relevant 
material must be loaded into the licensing support network and 
certified at least 6 months before the license application is 
submitted.
    The license application must present a defensible position that the 
repository can be constructed, operated, and closed without 
unreasonable risk to the health and safety of the public. The Nuclear 
Regulatory Commission has issued a site-specific licensing regulation 
(Title 10 of the Code of Federal Regulations Part 63, or 10 CFR 63) 
that is risk-informed and performance-based. It requires the Department 
of Energy to demonstrate in the license application that the repository 
will meet the specified performance objectives while it is being 
operated (preclosure) and after it is closed (postclosure).
    In fiscal year 2004, with the funds identified in our budget 
request, we will:
  --Respond to major Nuclear Regulatory Commission ``key technical 
        issues'' necessary to support the license application. These 
        are issues that NRC has asked the program to address prior to 
        license application submittal.
  --Complete the electronic Licensing Support Network (LSN) and 
        certification consistent with the requirements of 10 CFR Part 
        2, Subpart J, at least 6 months prior to submitting the license 
        application.
  --Complete required elements of the preliminary design for the waste 
        package, surface facilities, and subsurface facilities, in 
        support of the license application to the Nuclear Regulatory 
        Commission.
  --Complete the safety analyses for Department-owned spent nuclear 
        fuel and high-level radioactive waste, and Naval spent fuel for 
        the license application.
  --Complete the development and Yucca Mountain Project internal review 
        of five license application chapters for submittal to the 
        Nuclear Regulatory Commission for authorization to construct a 
        repository.
  --Complete the total system performance assessment postclosure report 
        in support of the license application. This report will reflect 
        increased understanding of how emplaced nuclear waste will 
        interact with the natural and engineered barriers after the 
        repository is closed.
  --Complete a draft of the license application for submittal to the 
        Nuclear Regulatory Commission.
    Even though site characterization is complete, in fiscal year 2004 
we will continue to collect valuable scientific information for our 
Performance Confirmation baseline, which is required by the NRC for our 
license. The NRC requires Performance Confirmation to continue until 
the repository is permanently closed.
    As specified in the Nuclear Waste Policy Act, we are providing 
funding for payments-equal-to-taxes to the State of Nevada and Nye 
County, Nevada; Yucca Mountain is located in Nye County. We are also 
providing funding to the University System of Nevada and to Nye County 
and Inyo County, California for independent scientific studies. No 
funding is identified in fiscal year 2004 for the Affected Units of 
Local Government because the scope of work is yet to be defined. Fiscal 
year 2003 is a transition year and DOE will review on-going activities 
to determine which should continue as we enter the licensing phase. We 
will be working with the State and counties in the next few months to 
restructure their work and participation.

  COST REDUCTION AND SYSTEM ENHANCEMENT THROUGH SCIENCE AND TECHNOLOGY

    The planned design for any facility is always based on currently 
available technology, and the geologic repository is no exception. 
Given a repository's long time horizon, technical developments that 
mature in the future might well improve upon the repository's current 
design in ways that reduce costs of out-year operations. Therefore, we 
have not only a duty to take advantage of current technical advances, 
but also an opportunity to foster the development of new technologies 
that hold greatest promise.
    We have initiated a new Cost Reduction and System Enhancement 
program in fiscal year 2003 and are requesting $25 million for it in 
fiscal year 2004. This program's objectives are to improve existing, 
and to develop new, technologies to achieve efficiencies and savings in 
the waste management system, and to increase our understanding of 
repository performance. The program will enable us to ensure technical 
excellence and develop new technologies; maintain our leadership in 
nuclear waste management; and keep abreast of emerging technical 
developments both here and abroad so that we can use them in enhancing 
performance, lowering costs, and maintaining our schedule.

          NATIONAL TRANSPORTATION AND WASTE ACCEPTANCE PROGRAM

    To develop a system ready to begin shipping waste in 2010, the 
program will accelerate efforts that were delayed during the site 
characterization period as a result of funding constraints. The 
Administration is requesting $73.1 million for this work in fiscal year 
2004. We plan to begin the initial procurement of the cask fleet and to 
place orders for long-lead time transportation cask systems and 
equipment as soon as possible. The contracts will be multi-year, thus 
requiring full funding before they are awarded. We will focus first on 
those transportation cask designs that have not been previously 
developed by industry and will be required for transportation. We will 
also prepare for the acquisition of transportation and logistics 
services, determine the approach for performing cask maintenance, 
develop initial site specific service plans in consultation with the 
utilities, and develop facility and equipment needs assessments for 
waste acceptance at DOE's defense waste sites.
    Funding in fiscal year 2004 will also support greater interactions 
with regional, State and local organizations to address institutional 
and technical transportation operations issues, including development 
of a final grant process for providing emergency responder assistance 
under the Nuclear Waste Policy Act to States and tribal governments.
    Of the $73.1 million requested, $18 million would be for activities 
associated with developing a waste transportation infrastructure in 
Nevada. The activities supported in this request are critical to 
achieving our goal of waste acceptance in 2010. We will continue to 
assess the transportation options for shipments to the repository. 
However, the national rail system has been used for the last 25 years 
to ship radioactive waste safely across the country. No rail link 
exists between the national rail system and the Yucca Mountain site. If 
developed, a rail line between the existing rail system and Yucca 
Mountain would cost an estimated $300 million to $1 billion, depending 
on the corridor and alignment proposed. Along with other transportation 
systems, the Final EIS for Yucca Mountain examined five potential rail 
corridors in the state of Nevada that could be used as transportation 
routes to the repository. If a decision is made to pursue rail 
transportation and to proceed with an alignment selection within one of 
the corridors, the Department must analyze the environmental impacts of 
constructing a rail line within that corridor. We will initiate 
consultation to solicit input prior to the development of documentation 
on a specific rail alignment in Nevada.
    In fiscal year 2004, pending the outcome of the NEPA process, the 
Program would initiate the conceptual design process, develop the draft 
EIS for a rail alignment, and initiate the land acquisition planning.
    Also, the program is working closely with the Office of 
Environmental Management on DOE spent nuclear fuel and high-level waste 
acceptance criteria to ensure we have an integrated, timely, and cost-
effective approach.

                   PROGRAM MANAGEMENT AND INTEGRATION

    Our fiscal year 2004 request includes $23.7 million for program 
management and integration activities, an increase of $4 million over 
the fiscal year 2003 enacted level, nearly all of which is devoted to 
the Quality Assurance program. The request reflects the need to have 
the strongest possible nuclear Quality Assurance program as we move 
into the licensing phase. Quality Assurance is the cornerstone of 
assuring the NRC that the Program has implemented activities related to 
radiological safety and health and waste isolation that are required by 
NRC regulations. We will continue to implement the management 
improvement initiatives that we are beginning in fiscal year 2003 to 
meet NRC expectations for a licensee.

                           PROGRAM DIRECTION

    The program is also requesting $75.1 million to support Federal 
salaries, expenses associated with building maintenance and rent, 
training, and management and technical support services, which include 
independent Nuclear Waste Fund audit services and independent technical 
analyses. These resources fund a small increase in Federal staff to 
manage repository design/licensing activities and national 
transportation initiatives and are essential to enable the Program to 
meet the goal of submitting a license application in 2004.
    Alternate Financing Proposal.--In fiscal year 2004 and beyond, the 
Program will need significantly increased funding to pay for the 
design, construction and operation of the repository, and the 
transportation infrastructure. Much greater certainty of funding is 
needed for such a massive capital project to ensure the proper and 
cost-effective planning and acquisition of capital assets. The 
Administration has indicated that, as part of a comprehensive 
discretionary cap proposal, discretionary cap adjustments for nuclear 
waste disposal activities will be proposed in the upcoming discussions 
with Congress on extensions to the Budget Enforcement Act. This 
proposal would provide adjustments for spending above an enacted fiscal 
year 2003 appropriation base level of funding in fiscal year 2004 and 
fiscal year 2005 for the program. These adjustments would be expected 
to be continued with each reauthorization of the Budget Enforcement Act 
until the repository facility is completed.
    I want to emphasize that, under these proposed adjustments, the 
Program would continue to be subject to the annual appropriations 
process and Congressional oversight. These adjustments would allow the 
Appropriations Committees to continue to evaluate our annual budget 
requests on their merits and to provide funding sufficient for the 
program's needs without adversely affecting other Congressional 
spending priorities.

                           CONCLUDING REMARKS

    We have reduced the near-term costs to construct the repository 
facilities required to receive initial shipments of nuclear waste by 
phasing the development of the repository while maintaining the overall 
acceptance schedule.
    We are aggressively pursuing ways to lessen the life cycle costs of 
the repository, and are instilling a safety conscious work environment 
and project organizational approach in the Program to meet our near and 
long-term goals effectively and efficiently.
    We are examining ways to remove waste from the nuclear power plants 
sooner, once the repository is opened.
    Our Program is a key element of the Department's and the 
Administration's efforts to advance energy and national security 
through science, technology and environmental management. It plays an 
important role in contributing to our homeland security, and honors our 
commitment to a clean environment for future generations. We need your 
help to get on with this effort, and to perform at the highest level 
without further delays. We urge your support for our budget request, 
and we are pleased to be able to work with you on this important 
national issue.

    Senator Domenici. Senator Reid.

             YUCCA MOUNTAIN LICENSE APPLICATION CHALLENGES

    Senator Reid. Thank you very much, Mr. Chairman.
    Dr. Chu, do you have people that are keeping track of the 
litigation that is ongoing with Yucca Mountain, and do you have 
an idea of how many different court proceedings there are in 
number?
    Dr. Chu. Yes. My understanding is the State of Nevada has 
filed suit against the Department of Energy and has also filed 
suit against the EPA and NRC, and these suits have been 
combined, and it is my understanding, the oral arguments will 
be heard sometime this September.
    Senator Reid. They are that far away. I note that the 
General Accounting Office evaluated DOE's progress toward 
license application in December 2001 and estimated at that time 
it would take until early 2006 to resolve all outstanding key 
technical issues to NRC's satisfaction. You would agree with 
that first sentence I read, would you not? Do you want me to 
read it again?
    Dr. Chu. Since I came on board, we have worked very 
diligently with our M&O contractor.
    Senator Reid. What is M&O? What does that mean?
    Dr. Chu. Managing and operating contractor, which is 
Bechtel SAIC, and they recently completed a conceptual design 
for the repository and developed an estimate, a range estimate 
of cost and time.
    Senator Reid. I do not want to be rude. You are reading an 
answer that there is no question to it. Just listen to this 
first part of the question, okay. What I said is, I noted that 
the General Accounting Office evaluated DOE's progress toward 
the licensing application in December 2001. That is when they 
did that, and they estimated it would take until early 2006 to 
resolve all outstanding key technical issues to NRC's 
satisfaction. Is that a fair statement?
    Dr. Chu. No, I do not agree with that statement.
    Senator Reid. Okay. Tell me what you disagree with.
    Dr. Chu. Our plan is, actually I am quite confident that--
--
    Senator Reid. No, but----
    Dr. Chu. Okay, our plan is we will be able to address----
    Senator Reid. But the GAO did say that, did they not?
    Dr. Chu. I believe so.
    Senator Reid. Yes, okay. Go ahead.
    Dr. Chu. And then as soon as I came on board we did an 
extensive review of where we were, and concluded we have a 
schedule that will enable us to address all of the technical 
issues before submitting a license application. The only 
things----
    Senator Reid. When do you expect you will be able to do 
that?
    Dr. Chu. It will be a few months before the license 
application, so it will probably be a few months before 
December of 2004.
    Senator Reid. So that would be about a year-and-a-half or 
something like that?
    Dr. Chu. Right.
    Senator Reid. Because the reason I mention that, since then 
only 70 of the 293 outstanding key technical issues have been 
resolved, and quality assurance is now being questioned by the 
NRC and the General Accounting Office, and licensing support 
network is due to be submitted by NRC 6 months ahead of the 
license application, so you feel that the only obstacle to your 
progress and ability to meet the license application deadline 
of 2004 is a lack of funds?
    Dr. Chu. Yes, I would say that, because--and let me say a 
little bit about these key technical issues. We had completed 
75----
    Senator Reid. Okay. I have 70, so you have completed 5 
more.
    Dr. Chu [continuing]. And we have another 77 in various 
stages of NRC review, and so we have a very detailed schedule 
of which ones and when we are going to submit, and we are on 
schedule right now. There will be 10 out of those 293 that NRC 
agreed because it takes long-term data collection. These will 
start to be addressed, but we will not have the answers until 
after the license application.

                 TRANSPORTATION PLAN FOR YUCCA MOUNTAIN

    Senator Reid. When do you expect to release a 
transportation strategic plan?
    Dr. Chu. Our plan is still sometime in 2003, and Senator 
Reid, part of my problem is because of the funding shortfall we 
are reassessing the whole program between the repository side 
and the transportation side.
    Senator Reid. And do you expect to involve stakeholders in 
the development of this transportation plan?
    Dr. Chu. That is something we talked about. We have not 
made a decision yet at this point.
    Senator Reid. Tell me why you would not involve 
stakeholders.
    Dr. Chu. I did not say that.
    Senator Reid. No, I know. I say, but give me a reason--you 
say you have not made a decision, but why would you not involve 
them? What would be the reasons you would not involve them?
    Dr. Chu. That is a good question. It probably would be a 
good idea.
    Senator Reid. Yes, I think it would be a good idea, don't 
you? Do you have plans for involving stakeholders in the 
decision process for selection of a transportation mode, a rail 
corridor, a final repository design, and these questions you 
may not be able to answer off-the-cuff, and if you want to do 
it in writing, that would be fine. You do not have an answer to 
that right now, do you?
    Dr. Chu. There is a bigger question involved around it, 
because of the funding shortfall, and we had made a decision 
that the highest priority is going to be our license 
application delivery. We do have a path forward. We feel 
confident we can do it. The problem is the funding shortfall, 
meaning we have to reprioritize the whole program, which 
inevitably will impact the transportation plan.
    Senator Reid. But you see, that is the problem that a 
number of people had, and that is, how can you have a license 
application if you have not done anything about transportation, 
because they should be one and the same. You cannot have an 
application unless you can figure out some way to get the stuff 
there. It is just not going to appear out of the sky.
    Dr. Chu. I agree. That is exactly the challenge I have 
right now. You see, in the past, every time we get a funding 
shortfall the transportation program was cut.
    Senator Reid. But you do not necessarily agree that was a 
good decision, do you?
    Dr. Chu. No. Therefore, what I am doing right now is to 
plan smartly and strategically so we have an increased chance 
of success, because every time you stop a program it is 
wasteful and disruptive. I want to minimize those things and 
focus on what I need to do in the transportation program that 
will always be used, given the uncertainty. In short, I want to 
design a transportation program that provides me the maximum 
flexibility and maximizes the chance of my success, given the 
funding disruptions.
    Senator Reid. My only point is, and I have been saying this 
for sometime, and others, it is not just me, that we would be 
better off if we had the transportation studies done before you 
do the license application, because people think, as I do, that 
it just is senseless to talk about filing an application if you 
do not have some way to get the stuff there, so that is a 
statement, not a question, okay.
    Thank you very much for your patience, Senator Domenici. 
One more question.

                      NEVADA STAKEHOLDERS SUPPORT

    Does the zero budget request that has been presented mean 
that you will not be working with any of the counties and you 
will no longer support their commenting on documents or 
participation at meetings or assessment of impacts or 
preparation of data for the licensing support network, or other 
provisions of information to the citizens? I guess my question 
is, how in the world could you not have something in your 
budget that affects State and local governments that are 
affected?
    Dr. Chu. I agree with you. The reason we did not put in any 
budget request is because 2003 is a transition year from site 
characterization to licensing, operation, and construction. My 
goal was to work with the State and the counties and then try 
to redefine the scope, and then their roles in this next phase, 
many years to come.
    Senator Reid. But you cannot do that with no money, can 
you?
    Dr. Chu. My plan is to work with them and then come up with 
the scope, and then we will come up with the funding, 
appropriate funding to reflect that scope.
    Senator Reid. Well, in your statement you said you were 
reassessing the repository and transportation across the board. 
What does that mean?
    Dr. Chu. Excuse me. Can you rephrase your question?
    Senator Reid. In your statement you said you are 
reassessing the repository and transportation across the board. 
That is in your statement. What does that mean?
    Oh, my staff said that is how you answered one of my 
questions. I thought it was in your statement. You said you are 
reassessing the repository and transportation across the board. 
That was your answer.
    Dr. Chu. That was a budget question? Was it a budget 
question? I guess my point is, I only have one program, which 
is the repository and transportation, so when it comes to 
budget assessment, priority assessment, I have to look at the 
program as a whole. That is what I am saying.
    Senator Reid. And I am saying that you are saying the right 
thing, but your actions are not. You have got to have the 
transportation as a part of your program. You cannot just set 
it to one side. Even though you may not have the money you 
need, you have to figure out some way to have them so they are 
both moving along.
    Senator Domenici, thank you very much for your patience. I 
appreciate it.
    Senator Domenici. You are most welcome, Senator. I note 
Senator Craig has arrived. Senator, I have not inquired, and I 
thought I would do that and then yield to you.
    Senator Craig. I am obviously behind the curve. You go 
right ahead with your questions, and I may have some at the end 
of the testimony. I merely came to give these fine ladies 
support for the cause.

         ENVIRONMENTAL MANAGEMENT'S FUTURE YEARS BUDGET PROFILE

    Senator Domenici. They have testified, and their statements 
are in the record.
    In your written testimony, Ms. Roberson, you indicated that 
you expect your budget to peak in fiscal year 2005, and then 
decline to about $5 billion in 2008. Under the most optimistic 
scenarios, completion of Rocky Flats, Fernald, and the Mound 
clean-up in 2006 will save you approximately $1 billion off 
your baseline, but by your testimony today you are indicating 
that your budget for 2008 will be $2.2 billion less than it was 
today.
    So I wonder in which activity, sites or otherwise will you 
find the additional $2.2 billion in savings, and some of the 
other sites in the complex were expecting their budgets to 
increase as a result of DOE's completing its work at Rocky 
Flats and other clean-up sites. How can you do that in an 
environment of a budget dropping $2.2 billion by 2008?

 MAJOR ACTIVITIES TO BE COMPLETED BY 2008 AS LISTED IN THE PERFORMANCE 
                        MANAGEMENT PLANS (PMPS)

    Ms. Roberson. Senator Domenici, the clean-up of the three 
larger closure sites, Rocky Flats, Mound, and Fernald is 
clearly a major piece of that. We also have tens of other small 
projects which amount to, during peak times, about $600 million 
that are also scheduled to be completed 2008 or sooner.
    In addition, in our performance management plans what we 
have done is laid out the activities over time, so what you 
have are estimates for completing the necessary work. So other 
key activities would also have progressed to the point at some 
of those sites, that continue to have clean-up, we will have 
completed certain major activities. I could not go through the 
specific list, but I would be glad to provide you with an 
example of those for the record.
    Senator Domenici. Would you do that, please?
    Ms. Roberson. Yes.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
         Site/Ops Office             Cleanup Endstates/Endpoints                      Activities
----------------------------------------------------------------------------------------------------------------
Amchitka........................  Fiscal Year 2003.................  Completion of subsurface groundwater
                                                                      modeling and risk assessment.
                                  Fiscal Year 2005.................  CRESP independent assessment and DOE
                                                                      groundwater model verification completed.
Battelle Columbus (West           End of Fiscal Year 2006..........  Site completion including demolition of
 Jefferson North Site).                                               buildings and remediation of radiological
                                                                      contamination.
Brookhaven National Laboratory..  Third Quarter Fiscal Year 2005...  Completion of groundwater and soil cleanup
                                                                      projects.
                                  Fourth Quarter Fiscal Year 2008..  D&D of HFBR.
                                  End of Fiscal Year 2008..........  Completion of EM Program at Brookhaven.
Energy Technology Engineering     June 30, 2003....................  Ship TRU offsite.
 Center.
                                  September 30, 2005...............  Complete RMHF D&D.
                                  2007.............................  Complete soil remediation and install
                                                                      groundwater remediation system, completion
                                                                      of cleanup program.
Fernald.........................  September 2004...................  Complete disposition of remaining low level
                                                                      waste and mixed waste.
                                  June 2005........................  Complete waste pits remedial action.
                                  June 2005........................  Eliminate treatment requirement, and
                                                                      transport waste from Silo 3 to Envirocare.
                                  May 2006.........................  Complete treatment of Silos 1 & 2 waste and
                                                                      transport via rail to Envirocare.
                                  December 2006....................  Complete soil excavation and on-site
                                                                      disposal facility construction.
                                  December 2006....................  Install needed infrastructure for Great
                                                                      Miami Aquifer restoration.
                                  December 2006....................  Complete facility D&D and disposal of D&D
                                                                      debris-site closure.
Hanford.........................  2004.............................  Retrieval and closure of 5 tanks.
                                  2005.............................  Complete PFP de-inventory.
                                  2006.............................  Complete removal of K Basin SNF, Sludge,
                                                                      Debris, and Water.
                                  2006.............................  Retrieve, assay, and disposition 15,000
                                                                      drums of buried suspect TRU.
Idaho...........................  September 2003...................  Complete cleaning and grouting of first
                                                                      pillar and panel vaulted tank.
                                  2004.............................  Complete Pit 9 retrieval demonstration.
                                  2005.............................  Remediate PBF, CFA, TAN (except groundwater
                                                                      plumes).
                                  2005.............................  Consolidate SNF from TAN to INTEC.
                                  December 2006....................  Complete cleaning and grouting of the
                                                                      remaining pillar and panel vaulted tanks.
                                  September 2008...................  Complete construction and readiness review
                                                                      of sodium-bearing waste treatment
                                                                      facility.
Los Alamos National Laboratory..  2007.............................  Complete all groundwater protection
                                                                      measures and monitoring.
                                  2008.............................  Complete corrective actions at the highest
                                                                      priority Material Disposal Areas
                                                                      (landfills).
Lawrence Livermore National       Fiscal Year 2006.................  Ship TRU waste off-site.
 Laboratory, Livermore Site.      Fiscal Year 2006.................  Complete groundwater remediation network.
                                  Fiscal Year 2006.................  Complete disposition of mixed and low-level
                                  Fiscal Year 2006.................   waste currently in inventory.
                                                                     Transfer program to NNSA.
Mound...........................  August 2005......................  Complete soil remediation of key Potential
                                                                      Release Sites [PRS].
                                  June 2006........................  Complete D&D of last 6 buildings.
                                  December 2006....................  Site Closure.
Nevada Operations Office........  2006.............................  Complete all Off-sites surface closures.
                                  2007.............................  Complete disposition of all current legacy
                                                                      TRU materials/waste.
                                  2008.............................  Complete closure of all industrial sites.
Oak Ridge Reservation...........  2004.............................  ETTP: Complete K 29/31/33 decommissioning
                                                                      for re-use.
                                  2005.............................  Melton Valley: Ship legacy waste for
                                                                      offsite disposal.
                                  2005.............................  ETTP: Dispose of legacy waste.
                                  2006.............................  Melton Valley: Complete remedial actions,
                                                                      site closure.
                                  2008.............................  ETTP: Complete Zone 1 and Zone 2 cleanup.
                                  2008.............................  ETTP: Dispose of empty DUF6 cylinders,
                                                                      overpack and transport full and heel
                                                                      cylinders offsite.
                                  2008.............................  Closure of ETTP.
                                  2008.............................  Complete cleanup of David Witherspoon 901
                                                                      and 1630 Sites in Knoxville and the Atomic
                                                                      City Auto Parts site in Oak Ridge.
Pantex..........................  April 2006.......................  Complete interim soil clean up measures.
                                  October 2006.....................  Complete Ogallala Aquifer groundwater
                                                                      remediation.
                                  May 2007.........................  Complete facility D&D and footprint
                                                                      reduction.
                                  September 2007...................  Complete remediation of Perched Aquifer.
                                  End of Fiscal Year 2008..........  Completion of remediation activities.
Sandia..........................  April 2004.......................  Regulatory closure process for radioactive
                                                                      waste landfill complete.
                                  February 2005....................  CMI complete for chemical waste landfill.
                                  March 2005.......................  CMI complete for mixed waste landfill.
                                  April 2004.......................  Regulatory closure process for classified
                                                                      waste landfill complete.
                                  August 2006......................  Complete all closure activities for mixed
                                                                      waste and chemical waste landfills.
                                  August 2006......................  Complete remaining work for closure of SNL
                                                                      cleanup project B complete all sites.
                                  September 2006...................  Complete all environmental restoration
                                                                      activities related to drains and septic
                                                                      systems.
                                  September 2006...................  Complete all environmental restoration
                                                                      groundwater activities.
Savannah River Site.............  2006 to 2007.....................  Close F Canyon.
Separations Process Research      2007.............................  Complete clean up and release of 90 percent
 Unit.                                                                (about 22 acres) of potentially impacted
                                                                      SPRU land areas, return them to Office of
                                                                      Naval Reactors, SNR.
                                  2007.............................  Complete groundwater cleanup.
West Valley.....................  Fiscal Year 2004.................  Complete decontamination activities.
                                  December 2004....................  Complete construction and operational
                                                                      readiness of Remote Handling Waste
                                                                      Facility.
                                  Fiscal Year 2005.................  Begin decommissioning.
Waste Isolation Pilot Plant.....  April 2003.......................  Increase WIPP capability to receive 100
                                                                      TRUPACT-IIs and/or Half PACTs per week.
                                  Second Quarter, Fiscal Year 2005.  First receipt of RH-TRU waste.
                                  Fiscal Year 2005.................  HWFP modifications for TRUPACT-III.
                                  Fiscal Year 2007.................  Begin shipments of TRUPACT-III.
----------------------------------------------------------------------------------------------------------------
The out-year funding profile of $5 billion in 2008 will afford the accomplishment of our accelerated risk
  reduction and cleanup goals, as noted in the attached table, through the synergetic combination of management
  reforms, performance management plans, and integrated project management teams.


    Senator Domenici. Does your outyear funding profile of $5 
billion in 2008 fully fund all of the site performance 
management plans you have spent the last year negotiating?
    Ms. Roberson. I believe so, sir.
    Senator Domenici. Would you confirm that and, if so, would 
you tell us which ones it does not?
    Ms. Roberson. I will confirm it in writing, but I can 
assure you that it is in line with the plan that we have laid 
out.

                  LOS ALAMOS ACCELERATED CLEAN-UP PLAN

    Senator Domenici. Regarding Los Alamos clean-up, the 
conference agreement on the fiscal year 2003 omnibus provides 
an additional $50 million for clean-up at Los Alamos National 
Laboratory consistent with the lab's performance management 
plan, that is the PMP. The DOE and the lab must have the 
agreement of the State on the PMP before the lab can proceed 
with this accelerated plan, which I support.
    A further complication is that last year New Mexico's 
environmental department proposed rulemaking actions against 
Los Alamos and Sandia based on a finding of ``imminent and 
substantial endangerment''. I understand the order has been 
stayed until May and the DOE has been negotiating with the 
State regarding the pending action.
    The State continues to push for more analysis and 
characterization of contamination, while the Department wants 
to proceed with the clean-up. What happens if the State never 
comes to an agreement with you regarding the clean-up? Will 
that impact on your ability to quickly ship waste to WIPP? Are 
you taking into account special concerns about how this could 
affect nuclear weapons operations at the laboratory at Los 
Alamos, and can you give me an update on this situation?
    Ms. Roberson. Senator, we are working very closely with the 
National Nuclear Security Administration on this matter, since 
they manage continuing operation on the site. Your facts are 
absolutely up to date and correct. The negotiations, we were 
hoping, would culminate within this week, no later than next 
week. I am actually going to be going out to New Mexico next 
week and meet with regulatory agencies there, and hope that we 
can affirm some further progress.
    If we are unable to reach agreement it will not impact our 
commitment to accelerate the TRU waste movements. We have 
invested a tremendous amount of energy and effort, working with 
EPA and NRC to do that, and we think it is in the best 
interests of New Mexico to proceed. However, the debate over 
how much characterization of the data is needed is certainly an 
element that would slow down our accelerated efforts at that 
site.
    Senator Domenici. Well, personally I would like very much 
for you to keep us posted on that. I would think that based 
upon what I know of your Department's efforts and the efforts 
through Los Alamos, and we have gone a long way in getting that 
ready, I would hope there are no additional requirements. 
Sometimes they come up with them and they are truly ridiculous. 
Sometimes they come up with them that are realistic, and I 
would hope you would pass objectively on what they really are 
all about and let us know.
    Ms. Roberson. You can count on me to do that, Senator.

             SCIENCE AND TECHNOLOGY DEVELOPMENT INVESTMENTS

    Senator Domenici. Over the last year the Department has 
dramatically cut its budget request for investment in science 
and technology development to support clean-up missions. This 
budget has gone from $300 million to a request of $64 million 
for 2004. That budget is focused on very, very near-term 
objectives, from what we understand. Why have you abandoned the 
notion that long-term clean-up costs over the next 30 years 
could be effectively reduced through aggressive development of 
the technologies?
    Ms. Roberson. Well, Senator Domenici, we have not abandoned 
the idea that our clean-up costs could be positively affected 
by science and technology. In the fiscal year 2003 budget we 
proposed, and the Congress approved, transfers the research and 
development function in the environmental clean-up program to 
the Office of Science, which we believe allows a more efficient 
utilization of resources, and we have worked very well with the 
Office of Science in that venue.
    The element of the science and technology program that 
remains in the EM is really focused on development and 
deployment of specific initiatives that allow us to benefit 
from the many technology endeavors undertaken in the last 2 
years and tested and developed through the science and 
technology program, so our efforts now are identifying the 
issues or problems that we need technologies focused on, and 
through a competitive arrangement, allow those companies to 
demonstrate to us the most efficient and effective application 
of those technologies. We believe we have moved the program to 
the next step of identifying those best suited for deployment 
in resolving those specific issues within the program.

              WASTE MANAGEMENT EDUCATION RESEARCH PROGRAM

    Senator Domenici. I have a long series of questions. I am 
just going to ask two more and then I will yield to Senator 
Craig.
    The Department has had an environmental program going 
called WERC, W-E-R-C, Waste Management Education Research 
Program, that involves three universities, headed by New Mexico 
State. Can you confirm today that DOE will fund WERC consistent 
with the cooperative agreement and congressional direction?
    Ms. Roberson. Senator Domenici, I can affirm that we intend 
to maintain a working relationship with WERC. We are working 
right now to ensure that the goals for the accelerated clean-up 
and the timing align with our cooperative agreement with WERC, 
and we may pursue some modification to that cooperative 
agreement from a scope perspective, but I believe that I can 
confirm we will continue to maintain a relationship with WERC 
and funding for that initiative.
    Senator Domenici. All right. That was not quite my 
question, but I will take it as an answer that you will try 
your very best, consistent with your reevaluation.
    Ms. Roberson. Exactly.
    Senator Domenici. Senator Craig.

                             IDAHO CLEAN-UP

    Senator Craig. Well, Mr. Chairman, thank you again, and to 
both of you, thank you for being here. Both of these issues and 
areas that you have responsibility over are important to our 
country, and are certainly important to my State.
    Jessie, you are obviously by now aware of a court decision 
in Idaho as it relates to a relationship between Idaho, DOE, 
and the clean-up on site at Idaho, and how all of that works 
its way out. I guess instead of asking you if the reality is at 
hand and we have to fund all that might be suggested by that 
decision, if you had a figure to propose--my guess is you 
probably do not--or at least a ball park figure, what I would 
much prefer to suggest is that at least in my mind, and I hope 
the State's, this court decision results in DOE and Idaho 
getting back to the table not only to recognize that there is a 
responsibility there for clean-up, but the judge argues, if you 
will, all means all, but more importantly I think, as it 
relates to the environment, the aquifer, what is the right 
amount to do that meets the science, that meets the 
requirements, that clearly might at some time create an 
environmental risk if it were not exhumed and removed, and that 
that is really an important way to approach this, than to 
assume that we are going to cast a budget that over x number of 
years cleans it all.
    I am not quite sure that Congress has that kind of money, 
or does DOE in this instance, but it is obvious to me now that 
this may be an opportunity, as much as it is an obstacle, to 
sit down with the State and work those differences out and to 
understand that the State and the Federal Government by the 
judge's decisions in this instance are at least coequal in 
making determination. Would you disagree with that?
    Ms. Roberson. I think not, Senator Craig. I would hold 
myself a step away in that the litigation door is still open. 
DOE is evaluating its options.
    Senator Craig. Well, I appreciate the concept of an appeal. 
I would hope your attorneys would come back and say that when 
you have a court-ordered environment of the kind you are 
operating in in Idaho, versus a relationship to contract and 
commitment in other States, that they are, by definition, 
somewhat different.
    At the same time, I think that that gives us the 
opportunity to clarify where we need to get in Idaho.
    Ms. Roberson. Senator Craig, I would say two things. One, I 
will leave the determination as to legal actions to our 
attorneys. However, when we did reach settlement on this matter 
last year, we at that time laid out the clean-up process and 
timeline for doing just that. Obviously, the first step was the 
Gem Project, the limited excavation. We are proceeding along 
that path. We expect to continue to work with the State along 
that path, but I cannot say what remedies may occur.
    Senator Craig. I think we are going to assume successes in 
these projects versus the historic problem we have had that we 
have worked our way through. I think those successes and the 
ability to determine that the manifest can be accurately 
reviewed by exhuming will go a long way toward helping Idahoans 
understand that we can do this in a way that is scientifically 
based and resolves any problems we might have and that keeps 
our environment and our aquifer intact.
    Ms. Roberson. And Senator, that is absolutely our goal, as 
we have laid out the commitments to demonstrate that. You are 
right, excavation of all, estimated all, and I am not sure how 
to define that, is probably well into the double digits of 
billions. There are other elements to be considered, not just 
excavation but transportation of that much material. There is a 
whole school of safety and environmental matters that have to 
play into the path that is laid out.

                     YUCCA MOUNTAIN FUNDING ISSUES

    Senator Craig. Well, thank you for that. We will work with 
you to try to resolve that issue.
    Margaret, again let me thank you for the task you are 
about. It is obviously important to meet the timelines if we 
can and must, I think, aggressively try to have an application 
by no later than 2004. That is aggressive, I do not think there 
is any question about it, but then to hit the 2007 timeline to 
be able to be--at least if we can start receiving by 2010, you 
will deserve a gold medal.
    Dr. Chu. Thank you.
    Senator Craig. We would like to award that to you, or the 
person who will follow you to this office. I must tell you, 
though, I am disappointed the administration did not get the 
budget cap adjustment that it was seeking as a part of the 
budget resolution this year. I think that would have been very 
helpful, obviously. The nuclear waste fund is taking in about 
$600 million a year, and we have appropriated less than $100 
million for the fund. I will certainly work with you to try to 
resolve this so we can keep you on schedule from a resource 
standpoint, at least.
    Dr. Chu. Thank you very much, Senator Craig. We need all 
the support.
    Senator Craig. Well, I thank you. I do not know that I have 
any specific questions of you, but this remains an extremely 
important project for the country. We have been able to get 
through some of the hurdles. Now we need to get through the 
rest.
    Dr. Chu. Thank you.
    Senator Craig. Thank you, Mr. Chairman.
    Senator Domenici. Thank you.
    Dr. Chu, I think you know that you are in a difficult 
position. That goes without saying, but frankly, you are up to 
it. You have the knowledge and strength to state what it is and 
how things are as you understand them. Leave the politics and 
the other things to us. You just do your work as you see it 
should be done. That is why we ask you to do this job, and we 
commend you for that.
    It is difficult, there is no question, and clearly the 
State of Nevada, with its wonderful Senators, has a different 
opinion, it appears, than what the law would have in mind for 
you to do, and in that regard you will constantly be on a 
rendering stick, whatever that is. You will be going around and 
around, and you are not very heavy so you cannot go around too 
much.
    There is not too much to render. In any event, we wish you 
the best.

                     SCIENCE AND TECHNOLOGY FUNDING

    Over the last years the Department has cut its budget--I am 
speaking now of science and technology--as far as the clean-up 
mission. Could I ask, why have you abandoned the notion that 
long-term clean-up costs over the next 30 years could be 
reduced by the deployment of new technologies?
    Ms. Roberson. Sir, we have not abandoned the idea that 
those costs can be positively affected; and our attempt is to 
integrate those technologies that have been developed as a 
result of investments over the last 10 years that they are 
integrated into the actual demonstration of work in the field, 
and so we are, through a competitive process, trying to 
integrate the best of those technologies into our actual work 
plans.
    Senator Domenici. Frankly, I thought you were going to say 
that a quick look at how much money we spent every year for the 
last 10 years in this area, put up against how much of that 
technology has proved useful, that you might have arrived at 
the conclusion that we were wasting a lot of money. Had you 
said that, I would have agreed with you. You said it 
differently, but that is all right.
    I do not know that we got so much out of the budgets of 
$200 million and $300 million in science and technology towards 
better ways of controlling this area. Everybody had a new idea. 
Everybody funded it, but not too much came out of it, so what 
you are saying is the lower number, you are still picking and 
choosing the very best, is that correct?
    Ms. Roberson. Exactly. That is exactly what we are trying 
to do, out of those 10 years of investment, competitively 
identifying those that we have funded, and pushing those into 
the field to actually help solve the problems.

        NEW MEXICO ENVIRONMENTAL DEPARTMENT PROPOSED RULEMAKING

    Senator Domenici. Last year, New Mexico's environmental 
department issued a proposed rulemaking action against Los 
Alamos and Sandia, based on the findings of quote, imminent and 
substantial endangerment. I understand the order has been 
stayed until May, and that DOE has been negotiating with the 
State. Can you give me an update on the situation, and do you 
believe there is imminent and substantial endangerment, to use 
their words, at Sandia and Los Alamos?
    Ms. Roberson. Senator Domenici, I do not believe there is 
imminent safety or environmental threat to the public. The 
negotiations are ongoing. We were hopeful that they would 
culminate within the next 2 weeks. I am going to go out myself 
next week and meet with the regulatory agencies and hopefully 
find that they are very near culmination.
    Senator Domenici. Well, I hate to say it, but I do not 
believe there is either, so we agree for starters. I would hope 
that they would get serious about this. We do not need any 
publishing language like this if they do not really have 
something. We have enough problems when there are serious 
problems, other than to have somebody bantering them around, so 
I urge that you move, and move very diligently to see if you 
cannot rectify this.
    On the safeguards and security, just a couple of questions. 
The Department has a unique and challenging security 
environment because of the special nature of our mission. Many 
tons of special nuclear materials are under our control. 
Security costs throughout the Department have been increasing, 
particularly in the aftermath of September 11.
    The costs to the Department have been going up, and now 
that our country is at war with Iraq the condition has been 
raised to an orange level, as the DOE sites refer to, in the 
security condition 3. As a result, Senator Reid and I, and with 
help from Senator Stevens last week led the fight here in the 
Senate to add significant sums to the 2003 supplemental to 
cover projected heightened security costs that the Department 
did not budget. What threat level or security condition did you 
assume in the development of the 2004 budget request?
    Ms. Roberson. We assumed a SECON 3, which is the, I guess, 
equivalent to a yellow, and so once elevated to an orange it 
elevates us to a SECON 2 and does include some additional cost 
to the program.
    Senator Domenici. That will not be sufficient, then, if the 
Department remains at security condition 3 for all of 2004.
    Ms. Roberson. That is correct. That is an elevated 
security. We are in an elevated security posture other than we 
assumed for fiscal year 2003, and if we proceed into fiscal 
year 2004 it would be the same situation.

                     SAFEGUARDS AND SECURITY COSTS

    Senator Domenici. Are there investments that we could make 
today that would dramatically reduce operational security costs 
over the next few years, and if you do not know about them now, 
could you supply them for the record?
    Ms. Roberson. I know a few, but I would probably like to be 
a bit more thoughtful.
    [The information follows:]

    Although we continue to evaluate new barrier and system 
technologies, the most dramatic reductions in security infrastructure 
costs are achieved by consolidating materials. As an example, the Rocky 
Flats security budget request in fiscal year 2004 is $18 million less 
than the fiscal year 2003 budget based on the removal of plutonium and 
highly enriched uranium from the site. Similarly, the disposal of 
transuranic waste at the Waste Isolation Pilot Plant from 23 locations 
nationwide will have a significant impact on lowering safety and 
security costs at those sites.

    Senator Domenici. Tell us about a few.
    Ms. Roberson. Obviously, consolidation of material at Rocky 
Flats has a very positive impact on our security costs. Also, 
consolidation at Hanford in a limited number of areas, versus 
where we have material stored now. That is the strategy that we 
are employing at all of our sites, and then every step you can 
progress in the consolidation arena brings down your costs. 
There are obviously also technological actions that can be 
taken which make sense for longer-term storage versus short 
term.
    Senator Domenici. We seem to get rather a good response 
from the chairman of Appropriations if we bring these issues 
up. If they are not included in a budget we are able to get 
them in a supplemental or add them as the bill goes through.
    Being at an accelerated level of security is not free. If 
your budget provides for a different level somebody has to put 
up the resources, and if you do not have it in there, you take 
it away from something, and we do not want that to happen when 
you have a close budget like you have, that you have already 
negotiated it out pretty thin.

                        POST CLEAN-UP EMPLOYMENT

    Rocky Flats as a model, you often refer to the success of 
Rocky Flats, and when you talk about what the environmental 
clean-up program should actually be. Certainly there are 
lessons to be learned from the DOE experience there. In many 
ways, the situation was unique in that the plant was relatively 
small, it was located in a large metropolitan area and provided 
more job opportunities for displaced workers, and the local 
community was committed to transitioning the site to a wildlife 
refuge with very little continuing employment.
    This contrasts dramatically with clean-up projects in DOE's 
communities. That is, in many cases we owe most of their 
livelihood in the area to the DOE presence and fewer 
opportunities for displaced workers, and long, or continued 
high level of DOE employment. That is not to say, having 
repeated those, that we ought to be liable for all of them, but 
the truth of the matter is, that is the case.
    There are as many or more people involved getting paychecks 
during the clean-up episode at Hanford and others than there 
were when they were in full operational scale, and that means 
that people are growing accustomed to a DOE paycheck. In fact, 
on the West Coast they are growing accustomed to paychecks in 
larger numbers for as high a pay as they were getting when all 
of the reactors were full-steam-ahead in the Scoop Jackson era, 
and it is very hard for you to make headway when people say, 
you cannot change the contract because we cannot lower the 
employment, is that not correct?
    Ms. Roberson. That is correct. I would say the employment 
changes as we move forward, we have worked very hard to tie 
those to completion of the actual work. Unfortunately, this is 
a program of fixing problems. The problems exist, and our job 
is to address them, which means at some point you are done 
fixing the problem.
    Senator Domenici. You understand why I raise it.
    Ms. Roberson. Yes.
    Senator Domenici. Because you are telling us, and we 
appreciate it, at least you have something going when others 
had nothing. You have the Rocky Flats model and you are saying, 
we are using it. I have just given you one big difference, 
right?
    Ms. Roberson. Yes.
    Senator Domenici. Rocky Flats does not anticipate continued 
employment post-completion, so it will not have as instant a 
relevance to Hanford, but you are suggesting you are pursuing 
that vigorously, is that correct?
    Ms. Roberson. Senator Domenici, you said it absolutely 
right. One of the clear challenges we have, really, across the 
country, is the recognition that completing the environmental 
issues in and of itself is the thing that opens the door to 
other economic opportunities, rather than maintaining the 
clean-up over a longer period of time.
    Senator Domenici. Okay, and they are beginning to 
understand that that is going to be the reality?
    Ms. Roberson. Well, I hope we are effective. That is 
certainly what we are trying to communicate.
    Senator Domenici. Well, I think that we are going to 
support you. I mean, we may get a lot of people that will not, 
but we have to get there some day or we will never reduce the 
cost.
    Ms. Roberson. Well, I think some of the progress that we 
are making is a demonstration, and I do see an alignment 
occurring, but it does take time, you are absolutely right. It 
is a bit more challenging, depending on the circumstances at 
each site, but it is not applying a cookie-cutter approach, it 
is applying the logic to the circumstances for each site.
    Senator Domenici. All right.
    Did you have something else?
    Senator Craig. I was just going to react, Mr. Chairman, by 
saying in relation to what you need, I am looking at what the 
INEL was, if you will, in the production era versus in large 
part now a clean-up era. We were 13,000, now we are 6,000. It 
seems like the reduction of workforce has not been such an 
obstacle there. Does it remain that much of an obstacle 
elsewhere?
    Ms. Roberson. I would have to say, over the last few years 
we have evolved. It certainly is an obstacle generically in 
that the understanding that the environmental clean-up program 
is a project-oriented program focused on resolving an issue, 
that if it takes you 30 years to do something it probably is 
not a good thing for the environment or the public, and that 
focus and that understanding is not something that has 
necessarily permeated the entire program.

                     PRIVATELY FUNDED TECHNOLOGIES

    Senator Domenici. I have a series of questions regarding 
Title X of the Energy Policy Act, but I will submit those for 
the record for you to answer.
    Privately funded technology for EM. Let me just ask you, I 
am aware of at least one company that has put their own money 
into developing an innovative waste treatment and separation 
technology, and if it works, could it reduce the cost of tank 
clean-up at Hanford and other sites? I have noted the 
President's 2004 budget includes a commitment that DOE will 
share part of the savings from the development of innovative 
clean-up technology as an inducement to encourage contractors 
to take financial risks to develop breakthrough technologies. 
Is the Department going to encourage such private sector 
solutions?
    Ms. Roberson. Senator, I am actually very familiar with 
this specific technology and venture that you are speaking of. 
I actually have a team that is going to go out to California 
and monitor their testing. There is probably another step in 
their demonstrating the application of that technology to our 
specific waste, but we are certainly watching, and we are 
encouraging them to proceed.
    Senator Domenici. I am not touting it, that technology, but 
rather the policy.
    Ms. Roberson. And it is the policy we are deploying in the 
clean-up program.
    Senator Domenici. It seems to me to be far more exciting 
than spending our own money on technology. People might be 
rather excited if, in fact, they developed one and you gave 
them this kind of a situation. It might be pretty good.
    Senator Craig, did you have anything further?
    Senator Craig. No, thank you, Mr. Chairman.
    Senator Domenici. Dr. Chu, did you have anything further to 
say, or comment?
    Dr. Chu. I hope in fiscal year 2004 we get the full 
funding. It is extremely critical for us. The next 12 to 18 
months are extremely critical for the viability of the program. 
I want to reemphasize that, and thank you very much for all 
your support.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. Thank you.
    Ms. Roberson, did you have anything further?
    Ms. Roberson. Senator, I would like to thank you and the 
subcommittee for the earlier comments on our proposed budget 
structure and our fiscal year 2004 budget request. That is a 
critical element of our reforms. It does, indeed, pattern after 
the actions that were taken for Rocky Flats in 1998-1999. I 
would be glad to provide any additional information, but it is 
a critical phase in our reform.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

     Questions Submitted to the Office of Environmental Management

            Questions Submitted by Senator Pete V. Domenici

                           ROCKY FLATS MODEL

    Question. Ms. Roberson, you often refer to the success at Rocky 
Flats when you talk about what the environmental clean-up program 
should be. Certainly there are lessons to be learned from the DOE 
experience there. However, in many ways the situation at Rocky Flats 
was unique in that the plant was relatively small, it was located in a 
large metropolitan area that provided more job opportunities for 
displaced workers, and the local community was committed to 
transitioning the site to a wildlife refuge with very little continuing 
employment. This contrast dramatically with clean-up projects in ``DOE 
communities'' that in many cases owe most of their livelihood to the 
DOE presence, have fewer opportunities for displaced workers, and long 
for continued high levels of DOE employment.
    Are you perhaps too optimistic that the Rocky Flats model will work 
at many other sites?
    Answer. In the 1996 Baseline Environmental Management Report, DOE 
estimated that it would cost $17.3 billion and take until 2055 to clean 
up the Rocky Flats Site. By utilizing an innovative and completion 
oriented cleanup strategy we were able to reduce cleanup costs to $7.1 
billion and the cleanup will be completed in 2006. The major elements 
of our cleanup approach at Rocky Flats include:
  --insisting on an uncompromising pursuit of top performance;
  --creating and implementing a closure ``project'';
  --implementing an aggressive performance-based; contracting strategy;
  --employing innovative project planning and delivery;
  --effectively managing human resources; and
  --using innovative technology where applicable.
    While the situation at the Rocky Flats site was unique in some 
ways, every site has cleanup circumstances and variables analogous and 
common to Rocky Flats. I certainly recognize that a ``one size fits 
all'' approach to cleanup will not work. However, I do believe the 
underlying cleanup strategy that we are using at Rocky Flats is 
applicable in large measure to other sites as well.
    Question. What encouragement can you provide that we will see the 
same level of progress at other sites such as Hanford, Idaho, and 
Savannah?
    Answer. The cleanup challenges at larger sites such as Hanford, 
Idaho, and Savannah River are formidable. Nonetheless, the underlying 
approach we are utilizing at Rocky Flats is applicable to cleanup at 
all of our sites. In particular, I believe that developing and 
implementing innovative acquisition strategies that foster accelerated 
cleanup and risk reduction through the use of performance based 
incentives is key to improving the effectiveness and reducing the cost 
of cleanup at our sites. These contracts and the associated performance 
incentives must be structured around cleanup strategies that 
aggressively focus on accelerating risk reduction to achieve defined 
end states. In addition, we have taken a number of reform measures to 
improve the effectiveness of the Environmental Management (EM) program 
as a whole. These include:
  --developing a new set of corporate performance measures that track 
        progress against cleanup and risk reduction goals;
  --restructuring the EM budget to clearly identify the scope and 
        resources that directly support EM's core accelerated mission 
        from those that do not; and
  --placing a number of key program elements such as life-cycle costs, 
        contract performance incentives, and site baselines under 
        strict EM Headquarters configuration management control.
    I believe that the steps we have taken to reform the EM program 
will facilitate a high level of confidence that the goals and direction 
of EM's accelerated cleanup and risk reduction mission will be met.

                             FUTURE BUDGETS

    Question. Your total budget proposal for fiscal year 2004 is 
approximately $7.2 billion. In your written testimony, you indicated 
that you expect your budget to peak in fiscal year 2005 and then 
decline to about $5 billion in fiscal year 2008. Under the most 
optimistic scenarios, completion of the Rocky Flats, Fernald, and Mound 
clean-ups in 2006 will save you approximately $1 billion off of your 
baseline. But by your testimony today, you are indicating that your 
budget in fiscal year 2008 will be $2.2 billion less than what it is 
today. From which sites specifically will you find the additional $1.2 
billion in budget savings?
    Answer. The cleanups of Rocky Flats, Mound, and Fernald are clearly 
a major segment of the reduction in resource requirements. We also have 
tens of smaller projects across our sites which amount to about $600 
million that are scheduled to be completed by 2008 or sooner. 
Additionally, other major activities at our large sites, which 
previously were not scheduled to be completed until after the closure 
sites, are now scheduled to be completed by 2008 in accordance with our 
performance management plans.
    Question. Some of the other sites in the complex were expecting 
their budgets to increase as a result of DOE completing its work at 
Rocky Flats and other closure sites. How will you do that in an 
environment of a budget dropping $2.2 billion by fiscal year 2008?
    Answer. Prior to the Top-to-Bottom (TTB) Review, the approach was 
to accelerate Rocky Flats and the other closure sites and re-invest the 
savings after 2006 in the cleanup of other sites. As a result of the 
TTB Review, the Department concluded that the cost to accelerate 
cleanup and risk reduction based on new strategies, with some funding 
increases over the next several years, would allow work completion 
earlier than had been previously planned, with an earlier and larger 
life-cycle savings. This strategy allows for cleanup work to be pulled 
forward at more sites so that the communities actually benefit faster 
from a cleaner environment than was previously thought possible.
    Question. Does your out-year funding profile of $5 billion in 
fiscal year 2008 fully fund all of the site performance management 
plans you have spent the last year negotiating?
    Answer. Yes. We believe with the synergetic combination of 
management reforms, performance management plans, and integrated 
project management teams, the out-year funding profile will afford the 
accomplishment of our accelerated risk reduction and cleanup goals for 
2008.

                        SAFEGUARDS AND SECURITY

    Question. The Department of Energy has a unique and challenging 
security environment because of the special nature of our mission and 
the many tons of special nuclear material under our control. Security 
costs throughout the Department have been increasing for years, and 
particularly in the aftermath of September 11. And now that our country 
is at war with Iraq, the security condition has been raised to the 
``orange level'', or as DOE sites refer to it--Security Condition 3. As 
a result of this, Senator Reid and I, with great help from Senator 
Stevens, last week led the fight here in the Senate to add significant 
sums to the fiscal year 2003 supplemental to cover projected heightened 
security costs that the Department did not budget for.
    What threat level or security condition did you assume in 
developing the fiscal year 2004 budget request?
    Answer. The fiscal year 2004 budget request assumes a security 
condition (SECON) 3 modified threat level, which corresponds to 
Homeland Security's threat level ``elevated/yellow.''
    Question. Will it be sufficient if the Department remains at 
Security Condition 3 for all of fiscal year 2004?
    Answer. The fiscal year 2004 budget request provides resources for 
the Department to remain at security condition 3 modified, which 
corresponds to Homeland Security's threat level ``elevated/yellow.'' If 
SECON 2 (``high/orange'') is implemented in fiscal year 2004, the 
Environmental Management Program would assess the adequacy of the 
fiscal year 2004 budget request based on the length of time SECON 2 is 
in force.
    Question. Are there investments we could make today that would 
dramatically reduce operational security costs over the next few years? 
If so, please provide specifics for the record.
    Answer. Although we continue to evaluate new barrier and system 
technologies, the most dramatic reductions in security infrastructure 
costs are achieved by consolidating materials. As an example, the Rocky 
Flats security budget request in fiscal year 2004 is $18 million less 
than the fiscal year 2003 appropriation based on the removal of 
plutonium and highly enriched uranium from the site. Similarly, the 
disposal of transuranic waste at the Waste Isolation Pilot Plant from 
23 locations nationwide will have a significant impact on lowering 
safety and security costs at those sites.

           WASTE MANAGEMENT EDUCATION AND RESEARCH CONSORTIUM

    Question. For almost 12 years the Department has funded the highly 
successful WERC, the Waste Management Education and Research 
Consortium, based in New Mexico. WERC has developed an impressive 
record for training new talent for the EM programs, I fear that the 
failure to request funding is short-sighted. The fiscal year 2003 
Omnibus included direction to the Department to fund WERC at last 
year's level of approximately $2.5 million.
    Can you confirm today that DOE will fund WERC consistent with the 
cooperative agreement and the congressional direction?
    Answer. We are committed to funding the Waste Management Education 
and Research Consortium in fiscal year 2003 consistent with 
congressional direction. Presently, we are working to ensure that the 
goals for accelerated cleanup and the timing align with our cooperative 
agreements. Accordingly, we may pursue some modification to our 
cooperative agreements to ensure needed alignment with the accelerated 
cleanup goals of the Environmental Management program.

                     IDAHO REMOVAL OF BURIED WASTE

    Question. As you are very much aware, there is a long-running 
dispute between the DOE and the State of Idaho regarding the removal of 
buried waste on site at Idaho. The DOE has maintained that it has a 
responsibility to remove a portion of the waste stored above ground, 
while the State has argued DOE is on the hook to remove all of the 
buried waste at Idaho. The resolution of this dispute has major impacts 
on the clean-up cost and schedule at Idaho. Last week, a Federal judge 
issued a ruling that raises serious concerns about the Department's 
chances that the 1995 clean-up agreement will be interpreted as the 
Department has suggested.
    What are the cost and schedule implications at Idaho if the DOE is 
required to remove all of the buried waste?
    Answer. Based on the judge's recent ruling, we believe the current 
estimate for retrieval, characterization, packaging, and disposal of 
all the buried waste is at least $10 billion. The current schedule 
estimate indicates that the work could not be completed before 2018.

                    COMPLETION OF CLEAN-UP AT SANDIA

    Question. The Department has proposed spending approximately $22 
million for the clean-up of Sandia National Laboratory in fiscal year 
2004. Will that level of funding keep Sandia on track for closure in 
fiscal year 2006?
    Answer. Yes, the requested fiscal year 2004 funding will keep 
Sandia on track to complete the EM mission in fiscal year 2006.

                    CLEAN-UP SITUATION AT LOS ALAMOS

    Question. The conference agreement for the fiscal year 2003 Omnibus 
provides an additional $50 million for clean up at Los Alamos National 
Laboratory (LANL) consistent with the Lab's performance management plan 
(PMP). Of course, the DOE and the Lab must have the agreement of the 
State on the PMP before the Lab can proceed with the accelerated plan. 
Further complicating the situation, last year the New Mexico 
Environmental Department issued proposed rulemaking actions against Los 
Alamos and Sandia based on a finding of ``imminent and substantial 
endangerment.'' I understand that the order has been stayed until May 
and that the DOE has been in negotiations with the State regarding this 
pending action. The State continues to push for more analysis and 
characterization of contamination, while the Department wants to 
proceed with the clean up.
    What happens if the State never comes to agreement with the DOE 
regarding the clean-up plan for LANL?
    Answer. In the event that we are not able to come to agreement with 
the regulators on an accelerated cleanup path for Los Alamos National 
Laboratory, we would propose a base funding level as enumerated in the 
Office of Environmental Management's fiscal year 2003 Congressional 
Budget Request, escalated appropriately. At this level, we would 
proceed with cleanup in a non-accelerated fashion. This would allow us 
to manage risk to protect the public and the environment, but would 
limit our ability to actually reduce risk, thereby extending the 
schedule for ultimate cleanup and increasing the life-cycle cost.
    Question. Will that impact our ability to quickly ship waste out of 
LANL to WIPP?
    Answer. Yes. Consistent with Section 315 of the fiscal year 2003 
Energy and Water Development Appropriations Act, a substantial portion 
of the fiscal year 2003 budget authority for the Los Alamos National 
Laboratory is currently unavailable because of the State of New 
Mexico's failure thus far to endorse the site's Performance Management 
Plan. This is affecting the Department's ability to accelerate the 
shipments of transuranic waste to the Waste Isolation Pilot Plant. The 
significant increase in shipments called for in the PMP requires an 
early investment in systems to increase the capacity at the LANL to 
process and ship waste.
    Question. Are you taking into the special concerns about how this 
could affect nuclear weapons operations at Los Alamos?
    Answer. The current rate of transuranic (TRU) waste shipments 
exceeds the rate of TRU waste generation from nuclear weapons 
activities at the Los Alamos National Laboratory. Consequently, there 
is no immediate concern that nuclear weapons operations would be 
curtailed or otherwise adversely impacted because of a lack of waste 
storage space. There is an estimated 2 years of storage capacity 
``cushion''. As we achieve the commitment in the Performance Management 
Plan to increase the number of waste shipments, the potential impact to 
nuclear weapons operations will be reduced even further.
    Question. Can you give me an update of this situation? 
(Background.--The Department is proposing that over 2000 drums of 
legacy transuranic waste will be shipped to WIPP in fiscal year 2004. 
This is 10 percent of the TRU waste at LANL, much of it stored in tents 
up on top of a Mesa. You will recall this area was almost burned in the 
Cerro Grande fire of 2000.)
    Answer. The Los Alamos National Laboratory has approximately 46,000 
drum equivalents of transuranic waste in storage. The LANL Performance 
Management Plan, calls for shipping 2,000 drums of the highest-activity 
and dispersible transuranic waste to the Waste Isolation Pilot Plant by 
the end of fiscal year 2004. To this end, the U.S. Nuclear Regulatory 
Commission approved a revised method of meeting certain shipping 
requirements for this subset of transuranic waste at LANL. The first of 
these drums was shipped in December, and more drums were shipped in 
January. This activity is referred to in the LANL PMP as the ``Quick to 
WIPP'' plan. In addition, the LANL PMP calls for disposing of all 
transuranic waste at LANL by 2010. LANL is currently averaging one 
shipment (42 drums) to WIPP per week. The plan is to increase to two 
shipments per week in May.
    Additional actions have been taken to reduce the risk of fire 
danger for this waste. Storage dome roofs are being replaced with 
material having greater fire resistance. Fire loading within the domes 
has been reduced; for example, wooden pallets have been replaced with 
metal. Wooden crates containing waste are now being stored in large 
metal containers; and brush and trees have been trimmed away from the 
storage areas.

                     SCIENCE AND TECHNOLOGY BUDGET

    Question. Over the last several years, the Department has 
dramatically cut its budget request for investments in science and 
technology development to support its clean-up mission. The budget has 
gone from over $300 million to a request of just $64 million for fiscal 
year 2004--and that budget is focused on very near-term objectives.
    Why has the Department abandoned the notion that long-term clean-up 
costs over the next 30 years can be effectively reduced through 
aggressive development of new technologies?
    Answer. The Office of Environmental Management's cleanup program 
has not abandoned the notion that long-term cleanup costs over the next 
30 years can be effectively reduced through aggressive development of 
new technologies. EM's cleanup program clearly faces many technical 
challenges that must be met through improved science and technology as 
it moves forward to address the cleanup of the nuclear weapons complex. 
The Department has included in the fiscal year 2004 budget request over 
$63 million for critical, high-payback technology development and 
deployment activities where quantum improvements can be gained, as well 
as on activities supporting closure sites. The Department has also 
requested over $29 million for the Office of Science to support 
scientific research to address cleanup problems identified by EM. In 
addition to this science and technology funding, EM is also moving to 
renegotiate and restructure many of our site contracts to further 
provide incentives for our contractors to seek out the best possible 
science and technology solutions to cleanup problems.

                TITLE X OF THE ENERGY POLICY ACT OF 1992

    Question. What is the level of claims for reimbursement that is 
currently pending payment by DOE (i.e. through 2001)?
    Answer. As of May 7, 2003, the total outstanding balance of 
approved claims that are eligible for reimbursement pending future 
appropriation of funds is $78.5 million. This is the remaining balance 
after DOE's April 2003 payment to eligible EPACT Title X licensees of 
its fiscal year 2003 appropriation for this purpose. The outstanding 
balance reflects unpaid claims submitted by the licensees by May 1, 
2002, for work performed through 2001. It does not include 
approximately $38 million in new claims submitted by May 1, 2003, for 
work performed through 2002, which have not yet been reviewed and 
approved by DOE.
    Question. How much of the claims have been audited?
    Answer. The review and audit of all of claims submitted and 
received by May 1, 2002, is complete. The review and audit of all 
claims submitted by May 1, 2003, will be completed within 1 year of the 
submission date, consistent with DOE's regulations (10 CFR Part 765) 
implementing EPACT Title X.
    Question. Based upon currently available funds, as well as funds 
requested in the fiscal year 2004 budget, when will these claims be 
fully paid? Based upon its projection of when current claims will be 
fully paid, how much time will have elapsed from the time that the 
claims were filed until the claims are fully paid?
    Answer. As stated in the previous answer, there is an outstanding 
balance of $78.5 million in approved claims. Based upon the fiscal year 
2004 budget request of $51 million, this outstanding balance would not 
be fully paid until fiscal year 2005. The elapsed time from submission 
of these claims until payment in full of all the claims would be about 
3 years.
    Question. What is DOE's projection of the amounts of new claims it 
expects to receive in fiscal year 2003? In fiscal year 2004? In fiscal 
year 2005? In fiscal year 2006?
    Answer. The following estimates are based on information provided 
by the licensees who are eligible for reimbursement under the Title X 
program. The amounts are the Federal government's share that would be 
eligible for reimbursement assuming the claims are approved in full. 
Approximately $20 million of the total claims submitted over this 4 
year period would be for amounts that exceed the per dry short ton 
reimbursement limit for uranium licensees; i.e., they would not be 
eligible for immediate reimbursement in accordance with EPACT Title X, 
as amended. However, these amounts would be eligible for reimbursement 
after fiscal year 2008, if the Secretary makes a determination at that 
time that there is sufficient authority under EPACT Title X, as 
amended, to reimburse those amounts.
    Fiscal year 2003.--$38 million ($7 million exceeds dry short ton 
reimbursement limit).
    Fiscal year 2004.--$36 million ($6 million exceeds dry short ton 
reimbursement limit).
    Fiscal year 2005.--$35 million ($6 million exceeds dry short ton 
reimbursement limit).
    Fiscal year 2006.--$33 million ($1 million exceeds dry short ton 
reimbursement limit).
    Question. What is DOE's current budget estimate for reimbursement 
of Title X claims in fiscal year 2004? Fiscal year 2005? Fiscal year 
2006?
    Answer. As you know, we have requested $51 million for fiscal year 
2004. For fiscal year 2005 and fiscal year 2006, the Department plans 
to request funding to meet our Title X obligations in a timely manner 
based on the estimates provided by the licensees who are eligible for 
reimbursement.
    Question. Assuming (conservatively) that all claims are approved as 
submitted, what is the level of shortfalls in the DOE budget estimates 
to meet these claims? Under these projections, what would be the 
balance of unpaid claims at the end of fiscal year 2006?
    Answer. As of May 7, 2003, the total outstanding balance of 
approved claims that are eligible for reimbursement pending future 
appropriation of funds is $78.5 million. Approximately $38 million in 
new claims were submitted by May 1, 2003. Assuming that all claims are 
approved as submitted, the balance of unpaid claims at the end of 
fiscal year 2004 would be $61 million--a reduction of $18 million 
relative to the fiscal year 2003 balance. The Department anticipates 
annual reductions to the unpaid balances at a similar level through 
fiscal year 2006.
    Question. Based upon DOE's current projections, what would be the 
average length of time from the time that new claims are submitted 
until they are fully paid?
    Answer. Based on DOE's current assessment, it would take an average 
of about 2 years before submitted claims are fully paid.
    Question. What is DOE's rationale for the long delays in making 
payments after approved and audited claim have been made?
    Answer. After the claims have been audited and approved, the timing 
of the actual reimbursements is subject to the availability of 
appropriations for this purpose. Consistent with Title X of the Energy 
Policy Act of 1992, we have made annual payments to the licensees. In 
accordance with the Department's Title X regulations (10 CFR Part 765), 
and subject to the availability of appropriations for this purpose, we 
have made reimbursements within 1 year of claim submission. When 
circumstances have allowed, we have made more than one payment in some 
years and have accelerated payment of outstanding claims when possible. 
For example, when Congress provided supplemental appropriations for 
Title X several years ago, outstanding claims were promptly paid 
consistent with those appropriations. Last August, when Congress 
increased the reimbursement authority for the thorium licensee, all 
outstanding claims to the uranium licensees had been paid; and in 
September, we paid all remaining fiscal year 2002 Title X funds to the 
thorium licensee to reimburse a portion of its previously approved 
claims. Because the backlog of unpaid claims currently exceeds the 
requested fiscal year 2004 appropriation, we will consider making 
payments for the currently approved claims immediately following the 
receipt of the fiscal year 2004 appropriation, as we did on one other 
occasion when appropriations had not kept pace with approved claims.
    The Federal Government has a legal obligation to pay its share of 
the costs of remediation of Title X sites, just as the government has a 
legal obligation to reimburse its contractors for the costs of 
remediating contamination at the government's own facilities.
    Question. Why should the reimbursement of the government's share of 
the costs at Title X sites be subject to delays relative to the 
reimbursement of the government's own contractors?
    Answer. DOE's relationship to the Title X licensees is not 
comparable to the relationship between DOE and its contractors. DOE's 
contractors conduct work only at DOE's direction. By contrast, the 
Department does not have contracts with the Title X licensees and 
therefore cannot control the rate of reimbursable costs being incurred 
at licensee's sites.
    The reimbursement of the Federal Government's share of approved 
costs at Title X sites is subject only to annual appropriations for 
this specific purpose. The current and projected backlog of 
reimbursements is the result of the increased reimbursement authority 
for the thorium licensee, which increases the projected remaining 
liability of the Title X program from about $80 million to about $280 
million. When the fiscal year 2003 budget request was submitted, the 
then-existing reimbursement authority for the thorium licensee had been 
exhausted. Carryover funds and the $1 million fiscal year 2003 request 
were more than adequate to fully reimburse the uranium licensee claims 
submitted in 2002. The $225 million increase in thorium authority was 
enacted on August 21, 2002, well after submission of the fiscal year 
2003 budget request. Prior to this increase in authority, our planning 
projections indicated we would need less than $15 million per year over 
the next 4 fiscal years to keep current with our payments.
    Question. Would it be equitable of the Congress to consider 
applying the same standards for its own contractors, such as the Prompt 
Pay Act requirements; penalty and damage provisions in the Federal 
Acquisition Regulation and the Department of Energy Acquisition 
Regulation, to Title X reimbursements?
    Answer. There is no contractual relationship between the licensees 
and the Department for the cleanup of their sites, and therefore it 
would be inappropriate to apply the standards and provisions that you 
refer to. The Department has a legal obligation to reimburse the Title 
X licensees for the Federal Government's share of their cleanup costs. 
However, the Department's ability to pay these costs is limited by the 
amounts appropriated annually for this purpose. In fact, within the 
limits of its appropriations, the Department has reimbursed licensees 
at least annually as required by law, and we have reimbursed licensees 
at least partially within 1 year or less after claim submittals, 
consistent with the availability of appropriations and our Title X 
regulations.

                   PRIVATELY FUNDED TECHNOLOGY FOR EM

    Question. Ms. Roberson, I am aware that at least one company has 
put up its own money to develop an innovative waste treatment and 
separation technology that, if it works, could substantially reduce the 
costs of tank cleanup at Hanford and at other sites. I also noted that 
the President's fiscal year 2004 budget includes a commitment that DOE 
will share part of the savings from the deployment of innovative 
cleanup technology as an inducement to encourage contractors to take 
the financial risk to develop breakthrough technologies.
    What is the Department doing to encourage such private sector 
solutions?
    Answer. One of the major recommendations of the Top-to-Bottom 
Review was improving the Department's contracting process with private 
sector entities, which may yield the single best opportunity for 
enhancing the economy and efficiency of the Environmental Management 
cleanup operations. The Top-to-Bottom Review team construed the 
acquisition function in a broad manner to include how the EM program 
can provide incentives for or entice best-in-class contractors to 
submit proposals in response to solicitations and how EM can 
effectively access private sector companies that have not traditionally 
submitted proposals to conduct EM work.
    In implementing this recommendation, EM has chartered a special 
contracting team to aggressively pursue new and improved contract 
models to accelerate cleanup of our sites. We are currently challenging 
our site contractors, through re-alignment and restructuring of their 
contracts, to both seek out and deploy the best technology solutions to 
our cleanup problems and to develop and proffer new business approaches 
to accelerate cleanup. Where it makes good technical and business 
sense, we will offer substantial incentives to a private sector company 
to solve a cleanup problem through deployment of a technology that has 
its roots entirely in a private sector investment.
    Question. Would it be possible to put in place contracting 
mechanisms that would permit and reward deployment of such privately-
financed cleanup technologies?
    Answer. Consistent with laws and policies that ensure sound 
contracting and fiscal responsibility, the Department has wide latitude 
to implement contracts that would permit and reward deployment of 
privately financed cleanup technologies.

                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. In the fiscal year 2003 Omnibus Appropriations Conference 
Report, Congress once again directed DOE to continue to evaluate the 
Advanced Vitrification System (AVS) and proceed to demonstration by 
implementing the February 28, 2002 work plan. This direction makes 
clear that an integrated demonstration of that technology is needed to 
determine if the promise of lower costs and faster vitrification can be 
realized. What is the status of your efforts to evaluate and 
demonstrate the AVS technology?
    Answer. As you may be aware, the DOE Office of Inspector General 
issued a report on the Advanced Vitrification System in August 2002, 
providing the following recommendations:
  --delay funding decisions on AVS until major uncertainties have been 
        addressed;
  --develop specific, focused performance measures to more fully gauge 
        progress in the evaluation and selection of an alternative or 
        advanced vitrification technology; and
  --address all technical, programmatic, and financial challenges and 
        uncertainties identified in previous studies during the 
        upcoming business plan evaluation.
    I have agreed with these recommendations and developed an Action 
Plan, which describes an approach to evaluate and develop 
immobilization alternatives for treating high-level waste (HLW) at 
Hanford. We will evaluate the technical and financial merits of AVS and 
other alternatives recommended by a recent technical panel. Those 
alternatives include an advanced Cold Crucible Melter and an Advanced 
Joule Heated melter. As part of the evaluation, questions regarding 
technical details of the AVS were provided to the Radioactive Isolation 
Consortium (RIC). Representatives from the RIC provided the Department 
with responses to the questions and participated in a review which was 
held on February 24-28, 2003, in Richland, Washington. The two review 
teams (technical and financial) are currently drafting their reports 
and will submit them to a DOE technical working group (TWG).
    The TWG has the responsibility of reviewing the reports and making 
a recommendation to me for future research and development of 
immobilization alternatives to treat HLW. A decision is currently 
planned for June 2003. The Department has extended the period of 
performance and associated funding to the Radioactive Isolation 
Consortium through the end of June 2003 to support this schedule.
    Question. How soon can the work plan for AVS be implemented to 
demonstrate whether its potential may be realized and does your 
department have sufficient funding to begin implementation of this work 
plan?
    Answer. The Department is currently evaluating whether or not the 
Advanced Vitrification System is plausible for use to treat high-level 
waste at Hanford. If a decision is made by the Department to pursue 
additional evaluation of the Radioactive Isolation Consortium's AVS, 
the draft work plan provided to the Department in February 2002 will be 
used to initiate development of the work scope and funding would be 
available. A decision is currently planned for June 2003.

                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. As I have noted in the past, I strongly support efforts 
by the Department of Energy and the Kentucky Natural Resources and 
Environmental Protection Cabinet to develop and implement an 
accelerated cleanup plan for the Paducah Gaseous Diffusion Plant. Like 
you, I am disappointed that the Department and the State have not yet 
been able to reach such an agreement.
    Can you provide me with a brief update on the status of your 
negotiations with the commonwealth of Kentucky to reach an agreement on 
a site performance management plan for the Paducah facility?
    Answer. The Department recently reached an agreement with the 
regulators on new cleanup milestones for the next 3 years. This 
negotiated resolution, while not accelerating cleanup at the site, does 
clear the way for the development of an updated Paducah site management 
plan (SMP), which serves as the blueprint for cleanup activities for 
the next 3 years.
    The three parties also agreed to conduct good faith negotiations to 
develop a complete scope of work for the Paducah cleanup by September 
15, 2003. I cannot commit at this time as to if, or when, a Performance 
Management Plan, as that term is used in Section 315 of Division D, 
Title III of the Consolidated Appropriations Resolution, 2003, will be 
developed.
    Question. What do you see as the major obstacles to reaching an 
agreement?
    Answer. The most significant obstacle to reaching an agreement 
remains the difference of opinion as to the degree and nature of the 
required cleanup beyond those actions to which we are already 
committed. In addition, the Department and the Kentucky Natural 
Resources and Environmental Protection Cabinet are working to resolve 
several notices of violation at the facility, issued previously by the 
Commonwealth.
    While I continue to hope for an accelerated cleanup agreement for 
the Paducah site soon, Section 315 of the Energy & Water title of the 
Omnibus clearly outlines the fiscal year 2003 funding for sites that 
have not implemented site performance management plans with the 
Department of Energy. Specifically, the language limits the funding for 
those sites to either ``the comparable current year level of funding, 
or the amount of the fiscal year 2003 budget request, whichever is 
greater.''
    Question. Can you tell me if the Department has determined which of 
those amounts--the fiscal year 2002 level of funding or DOE's fiscal 
year 2003 request--is the greater amount for the Paducah site?
    Answer. The Department has determined that the greater amount is 
the fiscal year 2002 funding level as appropriated and adjusted, that 
is $125,315,000.
    Question. Does the Department intend to provide the greater of 
these two amounts for cleanup activities at Paducah, as specified by 
Section 315?
    Answer. We have provided Paducah with $110,884,000, which supports 
the limited number of acceleration activities to which the Department 
and the site regulators have agreed. Since we do not have an 
integrated, long-range acceleration plan for Paducah, as reflected in a 
performance management plan and agreed to with the regulators, and do 
not expect to have one this fiscal year (2003), we do not anticipate 
providing any additional funds for cleanup activities.

                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

    Question. What is the present status of the Moab Tailings Project 
EIS and what is the expected timeline for completion?
    Answer. An Environmental Impact Statement is currently being 
developed to assess impacts from the following remediation scenarios: 
cap the tailings in place at their present location, relocate the 
tailings to the existing U.S. Nuclear Regulatory Commission-licensed 
White Mesa Mill facility near Blanding, Utah, or relocate the tailings 
to one of two sites, Klondike Flats or Crescent Junction, to be 
developed on Bureau of Land Management land north of Moab.
    Public scoping meetings were conducted during January 2003 in the 
communities potentially affected by the remediation scenarios being 
considered. The Draft EIS is scheduled for public release in January 
2004. Following a 45-day public comment period on the Draft, the Final 
EIS is scheduled to be available to the public in August 2004.
    Question. What remediation work, if any, can be completed with the 
level of funding provided under the Administration's request?
    Answer. At the requested funding level of $2 million, no 
remediation work will be performed. At the request level, the 
environmental impact statement will be completed on schedule and 
interim groundwater actions, tailings pile dewatering, and erosion and 
dust control will be continued at their current level.
    Question. If additional funds beyond the Administration's request 
are appropriated, what remediation efforts might be undertaken and what 
would be the most immediate priorities?
    Answer. The requested funding level of $2 million includes all 
activities planned for the Moab site in fiscal year 2004. The planned 
activities are development of the draft Environmental Impact Statement, 
which will incorporate recommendations of the National Academy of 
Science Report on Moab to be completed in January 2004, and the final 
EIS is expected to be issued in August 2004. In addition, funding for 
interim groundwater action, pile dewatering, and erosion and dust 
control is provided.
    Question. What is the status of any present efforts at site 
remediation, including the operation and maintenance of the interim 
ground water pump and treatment system?
    Answer. DOE will install the Interim Ground Water Corrective Action 
by September 30, 2003. This action is a series of groundwater 
extraction wells and a lined evaporation pond constructed on top of the 
tailings pile. The extraction wells will allow for removal of 
groundwater with the highest concentrations of ammonia. In addition, 
DOE has completed the removal of contaminated soils from the U.S. 
Highway 191 right-of-way adjacent to the DOE site. This removal allows 
the Utah Department of Transportation workers to work in a clean area 
during the Highway 191 widening project, which is planned for Summer 
2003.
    DOE will continue ongoing maintenance at the site, including 
operating the tailings pile dewatering system, applying dust control 
surfactant, and filling erosion rills that form on the pile.

                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. Ms. Roberson, I am very concerned about the delay in 
awarding the River Corridor Closure contract, and the rumored reasons 
for this delay. Delay will only hurt the efforts to accelerate cleanup 
at the site. I have heard the reason for the delay may involve the 
Administration's intention to remove the current requirement that the 
successful contractor commit to become a signatory to the Site 
Stabilization Agreement. If these disturbing reports are true, the 
negative consequences to the Hanford Site and to the Tri-Cities 
community would be substantial--including labor unrest that such a 
policy reversal will cause across the site and not just affecting this 
important closure contract.
    I would like to know if this contract award is being delayed, and 
if the Administration does intend to remove the Site Stabilization 
Agreement requirement contained in the request for proposals and 
contract terms?
    Answer. The River Corridor Contract was awarded on April 25, 2003. 
Shortly before that, on April 22, Secretary Abraham granted an 
exemption from the requirements of Executive Order 13202 for 
construction work covered by this procurement, determining that the 
River Corridor project satisfies the requirements of section 5(c) of 
the Order. This provision provides that an exemption may be granted for 
a project where an agency has issued ``bid specifications'' containing 
a requirement to abide by a project labor agreement and one or more 
construction contracts subject to such a requirement have been awarded 
as of the date of the Order.
    Question. Ms. Roberson, for fiscal year 2003, the final conference 
agreement imposed general reductions which will require decreases in 
your cleanup budget.
    Can I have your assurance that these general reductions will be 
allocated in a manner to minimize disruption to priority projects, such 
as the tank cleanup effort at Hanford, and will not be applied 
disproportionately to any particular program?
    Answer. The final fiscal year 2003 Environmental Management 
Consolidated Appropriation, Public Law 108-7, imposed general 
reductions totaling $118,058,000. These reductions were applied against 
the Defense Environmental Restoration and Waste Management, Non-Defense 
Environmental Management, and Uranium Facilities Maintenance and 
Remediation appropriations. Prior year balances totaling $5,546,276 
were available to partially offset these general reductions. The 
remaining $112,511,724 was applied proportionately against each 
program, project or activity as directed by specific language contained 
in the fiscal year 2003 Consolidated Appropriation Conference Report, 
H.R. 108-10. The exception to this approach was the $25,000,000 general 
reduction applied to the Uranium Facilities Maintenance and Remediation 
appropriation. Within this appropriation, $340,329,000 was specified in 
law for the Uranium Enrichment Decontamination and Decommissioning Fund 
account. Accordingly, the $25,000,000 reduction was applied only to the 
Other Uranium Activities account within the Uranium Facilities 
Maintenance and Remediation appropriation.
    Question. Ms. Roberson, for almost four decades, the Hanford 
Environmental Health Foundation (HEHF), a community-based non-profit 
organization, has provided quality occupational health services to 
workers at the Hanford site. I understand HEHF has broad support from 
the community and organized labor at Hanford.
    What is the status of efforts to ensure that workers at Hanford 
continue to receive excellent occupational health services?
    Answer. DOE is committed to providing excellent occupational 
medical services to the Hanford workforce. The current contract with 
the Hanford Environmental Health Foundation expires at the end of 
fiscal year 2003, with no extensions available. In March, DOE issued a 
Request for Proposals for a new occupational medical services contract. 
Contractor proposals are due on May 23, 2003. We expect to make an 
award and transition to the new contract by the end of the current 
contract. The new contract will require the same high quality of 
occupational health services that currently exist at Hanford. These 
services include long-term health legacy activities, first aid, 
employee assistance, emergency preparedness support, fitness for duty, 
medical monitoring exams, and prevention/mitigation activities.
    Question. Ms. Roberson, as you know, the HAMMER Training Center 
provides for Hanford workers with excellent training for their jobs. I 
have been told this has led to one of the best safety records across 
the country. I am disappointed that the EM budget again fails to fund 
HAMMER directly. I am further disappointed that there is no direct 
proposal by the Administration for how to transfer HAMMER to another 
part of DOE or another agency. I would like to work with you to protect 
worker training and the value of HAMMER.
    To do so, I would like to know if DOE now has any plans for the 
transfer of HAMMER to another entity?
    Answer. At the present time, DOE has no plans to transfer HAMMER.
    Question. I would also like to know how EM plans to maintain the 
training of Hanford workers at HAMMER if the program is not the direct 
manager of the facility?
    Answer. EM will continue to be a customer of HAMMER along with 
other DOE and non-DOE organizations. We foresee HAMMER as an available 
resource that the EM program may draw upon in support of the cleanup 
mission.
    Question. Ms. Roberson, assuming funds are provided by Congress, do 
you support the activities of the Atomic Heritage Foundation's 
Manhattan Preservation Project which would preserve historically 
significant facilities such as Hanford's B-Reactor and T Plant so 
future generations could visit them?
    Answer. I do not support using Environmental Management cleanup 
funds for this purpose. However, assuming funds are provided by 
Congress to maintain and operate historic properties, DOE supports the 
goals of preserving significant historic facilities, such as Hanford's 
B-Reactor for the enjoyment and education of current and future 
generations.
    Question. Ms. Roberson, in 1994, the Hanford Joint Council was 
created. In its 9-year history, a 100 percent success rate of resolving 
over 40 highly contentious whistleblower cases. It is felt that this 
board saved millions of dollars in attorney fees that would have been 
paid out to fight these claims in court. More importantly, the Council 
resolved the underlying safety issue brought up by the whistleblower. I 
have learned that the Department of Energy dissolved this Council a few 
weeks ago. The question is: why? The Joint Council cost the DOE about 
$400,000 per year.
    Could you please explain the logic behind doing away with the 
Hanford Joint Council?
    Answer. The Hanford Joint Council was a subcontractor to Fluor 
Hanford Inc. (FHI). The Joint Council was established for an initial 
period of 5 years, beginning October 1994. In July 1997, the charter 
was revised and the scope of the Joint Council was established to 
investigate and seek full and fair resolution of significant concerns 
involving health, safety, quality and environmental protection issues 
using an alternative mediation approach. From 1994 to 1997, there was a 
significant backlog of safety, health and environmental concerns. The 
backlog was due to a lack of confidence and trust in the Hanford 
contractor's employee concerns programs. The Department saw a need to 
establish an independent party to assist in the resolution of the 
concerns/backlog. During this time, the Joint Council was established 
and played a major role in the resolution of employee concerns.
    Today, FHI has implemented a number of safety programs (Voluntary 
Protection Program, President Zero Accident Council, Employee Zero 
Accident Council, Hanford Atomic Trades Council Safety Representatives) 
where contractor management and workers meet in an open forum to 
discuss safety issues at the Hanford Site. In addition to the safety 
programs, FHI has also enhanced their internal Alternative Dispute 
Resolution Program (ADR) for resolving employee concerns.
    Due to the implementation of the safety programs and the ADR 
process identified above, FHI has seen a significant decrease in 
anonymous concerns each year and is confident that safety concerns can 
be raised without fear of reprisal. FHI has demonstrated that it has 
programs in place that are adequately resolving concerns and are 
continuing to improve the effectiveness of the Employee Concerns 
Program.
    Question. Ms. Roberson, I have been told that some workers at the 
high-level nuclear waste tank farm area of Hanford have been 
complaining of becoming ill after exposure to toxic vapors that escape 
from the tanks.
    I would like to understand how many workers have sought medical 
treatment evaluation in the last 18 months from these exposures and 
what the Department is doing to investigate the cause of the exposures?
    Answer. There have been 29 requests for medical evaluation from 
workers who reported smelling vapors in the tank farms over the last 18 
months. All workers who reported smelling odors in the tank farms were 
encouraged to seek medical attention and those who reported an actual 
symptom, such as headache or nausea, were required to seek medical 
attention. The medical evaluations determined that none of these cases 
required medical treatment. The Contractor's Industrial Health and 
Safety Program has implemented a number of appropriate and conservative 
features to protect workers from exposures to high concentrations of 
vapors, primarily consisting of ammonia and volatile organics.
    First, a number of engineered controls are in place, consisting 
primarily of sealing the known vapor leak paths such as around the tank 
pit covers, valve covers and other structures. Second, administrative 
controls are employed that include real time monitoring for vapors and 
establishment of physical barriers to prevent workers from walking into 
areas that may contain high vapor concentrations. Finally, industrial 
hygiene technicians monitor the work areas in the tank farms to insure 
that workers in and around the tanks are not exposed to high vapor 
concentrations. This entails workplace monitoring using state-of-the-
art hand-held (which can measure in parts per billion) and fixed 
monitoring equipment. Additionally, our contractor has established 
administrative operating limits for vapor exposures that are below 
national consensus standards and guidelines to provide additional 
protection and assurance. For example, the most conservative limit for 
ammonia exposure is 35 ppm for a 15-minute exposure; our contractor has 
established that limit at 25 ppm for any exposure duration. The 
Occupational Safety and Health Administration (OSHA) sets that limit at 
50 ppm for an 8-hour exposure.
    Additionally, external evaluations have been conducted to review 
practices and make recommendations for improvements as appropriate. The 
contractor has formed a team of employees, led by a bargaining unit 
safety representative, to evaluate concerns and provide an improved 
mechanism for communication with the workforce. We also have expanded 
and upgraded our communication with the workforce on hazards in the 
workplace and the appropriate controls when working in areas where 
vapors may potentially exist. In addition, the required annual 
Hazardous Waste Operations and Emergency Response training was upgraded 
to focus on tank vapor hazards. Workers are regularly encouraged to 
raise issues and concerns in a variety of different venues.
    Workers also may request additional protective equipment in 
accordance with OSHA regulations. The worker will be provided the 
appropriate protective equipment based on an integrated analysis of all 
the hazards associated with the work. The Department is actively 
engaged with the contractor to continue to address these concerns and 
assure a safe workplace and a well-informed workforce.
    Finally, the Hanford Environmental Health Foundation conducted a 7-
month study of the medical records of over 800 Hanford Tank Farm 
workers and has found nothing that would indicate that these workers 
have suffered any adverse health effects from exposure to tank farm 
vapors.
    Question. Ms. Roberson, Washington State's Department of Ecology 
and the U.S. EPA recently sent a letter to the DOE calling for Hanford 
to end its practice of using unlined burial pits to dispose of 
radioactive materials.
    What is the Department's response to the notion that Hanford ought 
to be utilizing state-of-the-art burial techniques that include pit 
liners, leachate collection and groundwater monitoring in connection 
with these burial grounds?
    Answer. The current disposal practice of using unlined facilities 
complies with applicable laws and regulations and is the accepted 
practice both within DOE and commercially (Barnwell in South Carolina 
and U.S. Ecology in Washington). DOE is evaluating a more robust burial 
system to increase the margin of safety for the facility in terms of 
human health and the environment. This style of disposal system, 
analogous to a Resource Conservation and Recovery Act of 1976 disposal 
system, is evaluated in the revised draft Hanford Solid Waste 
Environmental Impact Statement that is currently issued for public 
comment.
    Question. Ms. Roberson, if DOE decides to proceed with lined burial 
pits, how much longer will unlined burial pits be used?
    Answer. For certain waste streams, such as the Submarine and 
Cruiser Reactor Compartments, as well as some other higher activity 
waste, there is no health or safety reason to change the current 
disposal practices of using unlined burial trenches.
    However, for other low-level and mixed low-level wastes, we are 
evaluating the use of other disposal methodologies, including lined 
trenches, in the revised draft Hanford Site Solid Waste Environmental 
Impact Statement. We anticipate the new disposal method, as selected in 
the subsequent Record of Decision, could be available by fiscal year 
2007.
    Question. Ms. Roberson, last year, the U.S. EPA released a report 
on the Columbia River Fish Toxics Inventory, detailing the health risk 
to people who consume fish from the Columbia River, based upon tissue 
analysis of the fish. According to the report, some groups such as 
Native American tribes, have a 1 in 50 chance of contracting a fatal 
cancer from lifetime consumption of this fish.
    Has DOE conducted, or is DOE planning to conduct, any studies to 
analyze the source of this contamination and how its release can be 
stopped?
    Answer. The Department has reviewed the above referenced report as 
have other interested parties. These are not Hanford-derived 
contaminants. They are primarily derived from agricultural, mining and 
industrial sources throughout the Columbia River system. There was some 
initial confusion when the report came out regarding the source of the 
contaminants in the fish that were studied. Because the report 
discussed (among other things) fish that were caught in the Hanford 
Reach, some readers assumed the contaminants were from the Hanford 
Site. A careful reading of the report, however, indicates otherwise. 
The contaminants identified in the fish are heavy metals, pesticides, 
polychlorinated biphenyls (PCBs), etc. The only connection with the 
Hanford Site is that some of the fish were caught in the vicinity of 
the Hanford Reach. The Columbia River in the Hanford Reach is a Class A 
river and any Hanford-related contaminants (as measured just downstream 
of the Hanford Site) are several orders of magnitude below the ambient 
water quality standards. That being said, the Hanford Site is actively 
working to remediate and minimize any potential impact from the 
migration of contaminated groundwater into the Columbia River at the 
localized plume areas along the Hanford Reach.
    Question. Ms. Roberson, last October, the Department publicly 
announced that it would close 40 of the high-level nuclear waste tanks 
at the Hanford site by 2006. However, there is no agreement with 
regulators about the definition of a ``closed'' tank nor has there been 
any public discussion of this issue. This has led to serious concern 
among regulators and the public that the Department is moving forward 
without the proper notice and approval.
    How do you intend to get the Department and its regulators and the 
public in agreement on this issue?
    Answer. The Department is striving to accelerate risk reduction by 
closing tanks in compliance with regulatory requirements. The Tri-Party 
Agreement (TPA) provides a framework for developing the tank closure 
process with the State of Washington's Department of Ecology (Ecology) 
and the U.S. Environmental Protection Agency. The Office of River 
Protection (ORP) is currently drafting a proposed change to the TPA 
which addresses requirements for retrieval and closure of Hanford Site 
single-shell tanks, establishes single-shell tank retrieval and closure 
demonstrations, and associated regulatory process documentation 
requirements. The single-shell tank system closure activities are 
dependent upon successful modification of regulatory documents through 
the addition of the Single-Shell Tank System Closure Plan. This plan 
would go through the required regulatory process which includes public 
review and comment.
    Question. Ms. Roberson, last year, the U.S. EPA released a report 
on the Columbia River Fish Toxics Inventory, detailing the health risk 
to people who consume fish from the Columbia River, based upon tissue 
analysis of the fish. According to the report, some groups such as 
Native American tribes, have a 1 in 50 chance of contracting a fatal 
cancer from lifetime consumption of this fish.
    Ms. Roberson, can you tell me how many claims have been filed under 
Subtitle D of the Energy Employees Occupational Illness Compensation 
Program Act of 2000 at Hanford?
    Answer. As of June 4, 2003, the Department of Energy's Office of 
Worker Advocacy had received 1,637 Hanford applications for assistance 
under Subtitle D of the Energy Employees Occupational Illness 
Compensation Program Act (EEOICPA). Of these, 722 cases have been 
reviewed.
    Question. Further, can you tell me how many of these claims at 
Hanford have been decided under the DOE Physicians' Panel?
    Answer. As of June 4, 2003, 28 Hanford cases have been sent to the 
Physician Panels, of which seven decisions have been issued.
    Question. How many have been paid?
    Answer. It is too early in the process for any EEOICPA Subtitle D 
claims to have been paid. This will be done only when claimants have 
completed the State workers' compensation claims process, a process 
that is outside of DOE's control. It is important to point out that DOE 
does not pay claims; however, under the provisions of Executive Order 
13179, DOE is required to report to Congress on the number of claims 
paid, and we are setting up procedures in order to carry out that 
responsibility.
    Question. Ms. Roberson, earlier this year, the Department published 
a proposed Environmental Impact Statement for Hanford that was focused 
on a variety of new technologies for treating low-activity waste. This 
was followed by a series of public meetings where DOE committed that: 
a) additional views would be carefully considered; and b) there would 
be plenty of opportunity for change to the proposed EIS. I'm concerned 
that, in contradiction to those commitments, the interests of my State 
are being ignored by the DOE. Proper and timely treatment of low-
activity waste is important. But there may be even more important 
opportunities to reduce waste volumes, costs, and schedules in the 
high-level waste stream that are not even being considered by the DOE. 
Governor Gary Locke wrote to express these concerns and my 
understanding is that, not only hasn't he received a substantial 
response, but also there have been informal indications that his 
concerns will be ignored by DOE in the next round of the EIS process. 
The residents of my State recognize that minimizing the cost of 
effective Hanford waste clean-up is critical to ensuring that there is 
enough funding to do the job right. It's impossible to make good 
judgments about potential technologies that should be included in the 
EIS without a thorough evaluation of the ``life-cycle'' costs 
(including temporary waste storage, transportation, and long-term 
disposal) for various high-level and low-activity waste technologies. 
This point was also addressed in the Governor's response to the initial 
EIS draft. I too would like to know specifically how DOE plans to 
address the prospect for high-level waste technologies and the life-
cycle costs of various technologies before our Subcommittee considers 
the fiscal year 2004 appropriations request. I'd be grateful for your 
response at the earliest possible date.
    Answer. The Department remains committed to vitrifying all of the 
high-level waste present in the Hanford tank system. We anticipate that 
only about 10 percent of the total volume of tank waste will ultimately 
be classified as high-level. We have modified the Waste Treatment Plant 
contract to add an additional high-level waste melter to assure 
successful and timely processing of this material containing over 90 
percent of the radioactive hazard. This portion of the waste will be 
disposed of in a geologic repository.
    Approximately 90 percent of the volume of waste in the tanks is 
low-activity waste. Two low-activity waste melters in the Waste 
Treatment Plant will allow us to vitrify a great deal of this waste. In 
order to further optimize completion of tank waste treatment and 
control the life-cycle cost of the project, the Department is 
evaluating technologies that could be used to immobilize that portion 
of the low-activity waste not ideally suited for vitrification in the 
Waste Treatment Plant. At this time, the Department is making a nominal 
investment in these technologies; approximately $6 million will be 
invested in fiscal year 2004. The Office of River Protection (ORP) is 
planning to complete technology selection by December 2003, and, if 
appropriate, begin system design in late fiscal year 2004. Life-cycle 
costs, including temporary waste storage, transportation, and long-term 
disposal, will be considered during the technology selection process in 
late 2003. The Washington State Department of Ecology was involved in 
the identification of the candidate technologies and all comments 
received were considered in scoping the Environmental Impact Statement 
(EIS). Preliminary life-cycle cost estimates are complete and more 
refined estimates will be made as test and design data become 
available. With regard to the proposed EIS for Retrieval, Treatment, 
and Disposal of Tank Waste and Closure of Single-Shell Tanks at the 
Hanford Site, the Department is evaluating several conservative cases 
that will bound the environmental impacts that may result from 
implementation of the supplemental treatment technologies. ORP has 
completed public comment on the proposed scope of the EIS, and a Draft 
EIS will be available for public comment in September 2003.
    Question. Ms. Roberson, in 2001 DOE's Office of Inspector General 
released a report regarding DOE's land holdings within the boundaries 
of the Hanford Reach National Monument in Washington State. The report 
recommended the transfer of these lands to the U.S. Fish and Wildlife 
Service as early as 2004. Such a transfer could challenge DOE's fiscal 
responsibilities as set forth in an agreement between the agency and 
the local governments in 1996.
    I would like to know if this transfer is under consideration? If 
so, what is the status of the transfer, has DOE established a framework 
for implementation (including land surveys, agreements with the 
Department of the Interior, certification of waste removal, transfer 
liabilities, etc.), and how does DOE intend to fulfill the outstanding 
payment obligations as set forth in the 1996 agreement?
    Answer. In response to the DOE Office of Inspector General report, 
DOE committed to pursue a phased transfer of approximately 265 square 
miles of the Hanford Site that is included in the Hanford Reach 
National Monument. The two phases correspond to completing certain 
environmental cleanup activities at Hanford that would significantly 
reduce the risk to the areas proposed for transfer. We have been 
working with the various elements of the U.S. Department of the 
Interior to define the specific legal processes to be used and the 
various specific activities that would have to be completed such as 
land surveys, etc., to complete the potential transfer. This work has 
not been finalized. The target date for the first part to be 
potentially transferred to the U.S. Fish and Wildlife Service, the 
Fitzner/Eberhardt Arid Lands Ecology Reserve, is approximately 
September 2004. The target date for the second phase, involving the 
``Riverlands,'' McGee Ranch and North/Wahluke Slope, is September 2005.
    DOE policies allow for discretionary payments in lieu of taxes 
(PILT). The 1996 agreement to which you referred states that if there 
is ``a change in the amount of property in Benton County under the 
Department's control, Benton County shall identify and explain those 
changes in its certification and, upon approval from the Department 
which will be forthcoming within 60 days of receipt of certification, 
payment will be made based upon that certification. The related PILT 
intergovernmental agreements between DOE and Grant County, and between 
DOE and Franklin County, specifically recognize that DOE's PILT 
``Payment and any future assistance payments under section 168 of the 
[Atomic Energy] Act are not entitlements.''
    DOE's discretionary authority under section 168 is limited to 
``those States and localities in which the activities of the Commission 
are carried on, and in which the Commission has acquired property 
previously subject to State and local taxation . . .'' Within the 
limits of that statutory authority, DOE intends to fulfill its 
obligations under the agreements referenced above.

                                 ______
                                 
    Questions Submitted to the Office of Civilian Radioactive Waste 
                               Management
            Questions Submitted by Senator Pete V. Domenici

                      YUCCA MOUNTAIN FUNDING LEVEL

    Question. Dr. Chu, You noted in your testimony that the fiscal year 
2003 funding level is a $131 million reduction from the President's 
request. I've previously heard the Secretary note that this funding 
shortfall introduces a ``high risk'' with regard to DOE's ability to 
meet the goal of a December 2004 license application date. What 
additional funding will be required in this fiscal year to keep all 
critical elements of the program on schedule for the 2010 target 
opening date?
    Answer. The targeted 2010 opening date is premised on submitting a 
license application by the end of 2004, receiving construction 
authorization by the end of 2007, and receiving a license to receive 
and possess waste in 2010. At a minimum, the under-funding in fiscal 
year 2003 will make it more difficult to meet our goal of submitting a 
license application by the end of 2004, and will require deferral of 
work activities that are essential to beginning receipt in 2010. The 
reduced appropriations have resulted in a replan of the Program through 
submittal of the License Application (LA). The key impacts of this 
replan are: LA submittal in December, 2004, but at a higher technical 
risk; partial shut down of Yucca Mountain site and deferral of certain 
scientific tests; and, further deferral of transportation work 
supporting a 2010 waste receipt goal. Also, some workforce reduction 
associated with the reduced appropriations is unavoidable.
    Question. Will the Department be submitting a supplementary budget 
request for these resources?
    Answer. The Department is still evaluating its options for 
addressing the fiscal year 2003 funding shortfall. The Program's fiscal 
year 2003 appropriation was certainly below what we felt was a 
realistic level to stay on schedule for submitting a license 
application by the end of 2004. The shortfall has called into question 
our ability to accomplish all the pre-license application work in the 
time frame we have set. The Department has no plans at this time to 
submit a supplemental budget request for fiscal year 2003, but is 
considering options including a fiscal year 2004 budget amendment 
request.

                             TRANSPORTATION

    Question. Dr. Chu, I understand that adequate funding is not only 
required for the license application, but also for other critical long-
lead elements of your program. Judging from our experience with WIPP 
(Waste Isolation Pilot Plant), the transportation program will be 
difficult to construct and will require years to put into place. How 
much of your fiscal year 2003 budget is devoted to transportation?
    Answer. In an effort to maintain the December 2004 license 
application date, we have had to focus most of our resources in that 
area. As a result, a total of $5 million is allocated to 
transportation, $25 million less than requested in the Administration's 
request.
    Question. Do you believe that the program is starting soon enough 
on transportation issues to have the system ready for operation by your 
target date of 2010?
    Answer. Development of the transportation system requires an 
aggressive schedule to support the planned opening of the repository in 
2010. Shortfalls in funding are impacting that schedule and we are 
currently analyzing the longer term effects of the reduced funding on 
the schedule.

                        MODES OF TRANSPORTATION

    Question. Dr. Chu, from past debates on Yucca Mountain, it's clear 
that transportation issues will remain a major controversy. The mode of 
transportation will be one of the most controversial elements. I 
believe that DOE has stated that it favors a ``mostly rail'' program. 
Do you still favor primarily rail shipments?
    Answer. The Yucca Mountain Environmental Impact Statement (EIS) 
stated that the preferred mode of transportation is mostly rail; 
however, the Department has not made a final decision on mode (i.e. 
mostly rail or mostly truck).
    Question. When do you expect to issue a record of decision on 
preferred modes of transportation?
    Answer. The exact timing and content of any Record of Decision is 
under evaluation within the Department in conjunction with other 
aspects of transportation planning. The Department intends to issue a 
Transportation Strategic Plan later this year that will outline the 
timeframes for decisions needed to assure that transportation 
capability will be available to support the planned initiation of 
repository operations in 2010.
    Question. What are the critical elements in the path toward 
finalizing your waste acceptance and transportation systems?
    Answer. The critical transportation elements are development of the 
Nevada transportation infrastructure, initiating acquisition of 
transportation casks and supporting equipment, and maintaining the 
institutional program.
    Question. And what cost and risk can you estimate for each element?
    Answer. The largest risk involved with the development of the 
transportation system is in the area of the development of the Nevada 
component of the system. The development of equipment to ship wastes 
has little risk since many components are available in the commercial 
sector.
    The FEIS, released with the Yucca Mountain site recommendation, 
identified rail transportation as the preferred transportation mode. If 
the decision is made to ship by rail the development of a rail line 
would cost between $300 million and $1 billion depending upon which 
corridor is selected. The acquisition of transportation casks and 
supporting equipment will cost about $500 million.
    Question. If a rail shipment isn't in place by 2010, how many truck 
shipments will be required to replace the rail option?
    Answer. Approximately 250 truck shipments would be required to ship 
400 MTU in the first year of operation. The number of shipments would 
increase linearly as the waste acceptance rate increased.
    Question. If the Department starts with a truck shipment program 
and transitions to a rail program later, won't this lead to some 
unnecessary costs in the program?
    Answer. First, it is important to note that even under a rail 
shipment program, some shipment by truck is needed. Our goal is to 
minimize unnecessary costs, while at the same time maintaining the 
flexibility necessary for an optimum transportation campaign. The costs 
associated with a transition from truck to rail would depend on the 
length of time between the start of a truck shipment program and the 
start of a rail shipment program. If the time span were short, 
additional costs, if any, would be small. The longer the time span the 
more truck casks, beyond the number needed once rail shipment started, 
would have to be procured to meet the same acceptance rate. Such 
additional equipment investments would have little use once rail 
becomes operational.

                             SHIPMENT CASKS

    Question. Dr. Chu, as you know some sites are placing waste today 
in NRC-licensed dual-purpose storage and transportation casks. I 
understand that sites are eager to have final guidance on the types of 
canisters and casks that will be acceptable at Yucca Mountain. 
Otherwise, sites may be doing work that simply must be repeated later. 
Will the initial operations of the repository accept NRC-licensed dual-
purpose storage and transportation casks?
    Answer. The Department's position is that multi-assembly canistered 
spent fuel is not covered by the disposal contracts between the 
Department and the utilities, and thus is not considered an acceptable 
waste form, and absent a modification to these contracts, will not be 
accepted for delivery to the Yucca Mountain repository. The Department 
has stated its willingness to initiate the appropriate actions to 
include such systems under the terms of the disposal contracts, as part 
of an overall contract modification that would address other waste 
acceptance and scheduling issues.
    Question. Has the Department finalized acceptance criteria 
sufficiently to give adequate guidance to utilities, including the 
sites involved in decommissioning, which must move spent fuel to dry-
storage right now?
    Answer. The current acceptance criteria were established and agreed 
upon by the Department and utilities in the standard contract. The 
Department is aware that subsequent to signing the standard contract, 
issues have emerged that may require modifications to the acceptance 
criteria and thus to the contracts. One such issue is the acceptance of 
canister systems some utilities are now using to move spent fuel to dry 
storage. Unfortunately, as a number of these issues are the subject of 
ongoing litigation in the U.S. Court of Federal Claims, the Department 
is limited in its ability to pursue discussion of finalized or updated 
waste acceptance criteria with utilities at this time.

                                 ______
                                 
               Questions Submitted by Senator Harry Reid

                             YUCCA MOUNTAIN

    Question. I note that the GAO evaluated DOE's progress towards 
license application in December 2001 and estimated that it would take 
until early 2006 to resolve all outstanding Key Technical Issues (KTIs) 
to NRC's satisfaction. Since then only 70 of the 293 outstanding KTIs 
have been resolved, quality assurance is being questioned by NRC and 
GAO, and the Licensing Support Network is due to be submitted to NRC 6 
months ahead of the LA. Can you really suggest that the only obstacle 
to your progress and to your ability to meet the license application 
deadline of December 2004 is the failure of Congress to provide 
sufficient funding for your program?
    Answer. There are nine Key Technical Issues associated with 
repository development and operations at Yucca Mountain. Associated 
with the nine KTIs are 293 agreements. At the time of the Yucca 
Mountain site designation, NRC designated all 293 agreements as closed 
pending DOE's provision of additional information to NRC. Since that 
time, DOE has provided a portion of that information, and NRC has 
agreed that 78 of the 293 agreements are complete as of May 23, 2003. 
Despite significant budget shortfalls, DOE continues to develop the 
documentation and analyses to complete the remaining agreements. All 
agreements need to be addressed by defining a clear path to completion 
before License Application, but they do not necessarily need to be 
complete before LA.
    DOE has identified some quality assurance issues that must be 
successfully addressed. NRC and the GAO assessment that you referenced 
have recognized these issues. While sufficient funding is not the only 
obstacle to our program, it is the most critical obstacle to our 
ability to meet our program goals. Sufficient funding is required for 
detailed repository design, Licensing Support Network development, and 
other key elements of an acceptable LA.

                    TRANSPORTATION PLANNING PROCESS

    Question. Given the amount of available funding in fiscal year 
2003, is it your intention to defer the transportation planning process 
in order to complete the LA by December 2004? What transportation 
related activities do you plan to complete in fiscal year 2003?
    Answer. Because of the reduced funding level it is necessary to 
defer most of the national transportation activities in an effort to 
hold to the December 2004 LA date. The Department does plan to issue 
its Transportation Strategic Plan later this year.
    Question. When do you expect to release a Transportation Strategic 
Plan and to what extent will you involve stakeholders in the 
development of that Plan?
    Answer. The Department intends to issue a Transportation Strategic 
Plan later this year. The Department expects to involve stakeholders in 
the process to develop the Plan. Their comments will be considered as 
the more detailed transportation planning documents are developed.
    Question. What plans do you have for involving stakeholders in the 
decision process for selection of a transportation mode, a rail 
corridor, a final repository design, and for other decisions yet to be 
made in regard to repository development?
    Answer. The Yucca Mountain Final Environmental Impact Statement 
stated: ``If, for example, mostly rail was selected, both nationally 
and in Nevada, DOE would then identify a preference for one of the rail 
corridors, in consultation with affected stakeholders, particularly, 
the state of Nevada.'' The Department is taking a careful and 
deliberative look at the potential resource impacts and other 
implications in making both the transportation mode decision and Nevada 
corridor decision. Decisions regarding transportation will be made 
after thorough consultations with stakeholders, including State and 
tribal representatives, as well as national and regional organizations 
that interact with the repository program. Further details will be 
developed as we proceed with transportation planning. We will continue 
to work with the stakeholders, including the State of Nevada and 
affected units of local government throughout the various phases of the 
repository's development and operation.

                        STAKEHOLDER INVOLVEMENT

    Question. What is your vision for continued involvement of affected 
units of State and local government in the Yucca Mountain program 
during the license and application phase and subsequent phases of 
repository development?
    Answer. I believe the Nuclear Waste Policy Act contemplated a 
cooperative, ``government-to-government'' relationship between the 
Department and the State and each of the affected units of local 
governments throughout all phases of the repository development. I 
believe that each governmental unit must have well defined roles and a 
clear understanding of their responsibilities under the NWPA. Equally 
important, we should clearly understand each others' responsibilities 
and constituency. We need not agree on every issue but we should 
understand and appreciate each others' positions.
    Question. Does the zero budget request mean that you will not be 
working with any of the counties, and that you no longer support their 
commenting on documents, their participation at meetings, their 
assessment of impacts, their preparation of data for the Licensing 
Support Network, or their provision of information to their citizens? 
If you are proposing to support some county programs and not others, 
what criteria will you use for determining their participation?
    Answer. The Department's practice has been to provide the State and 
affected units of local government with oversight funding as 
appropriated by Congress, and the Department does not expect to deviate 
from this practice. As the Department transitions from a site 
characterization phase to a licensing phase, it is important for the 
Department, State, and affected units of local government to identify 
the types of activities for which oversight funding can be requested 
and provided. We are developing guidelines for activities that could be 
funded in the licensing phase. These guidelines will be discussed at 
the next Affected Units of Government meeting scheduled for June.

                  LEGACY MANAGEMENT AT YUCCA MOUNTAIN

    Question. What is your vision for legacy management in relation to 
the Yucca Mountain project?
    Answer. There are varying views of what ``legacy'' management can 
mean. However, let me share with you the view I expressed during my 
confirmation hearing. I believe the existence and continuing 
accumulation of nuclear waste, spent fuel, and excess defense nuclear 
materials in the United States and globally demonstrates that the long-
term management and disposal is not a matter of choice but a necessity. 
Prudent management of these materials is a profound and enduring 
responsibility of the Federal Government, the international community, 
and the world at large. I believe geologic repositories are vital to 
closing the nuclear fuel cycle and removing an impediment to the future 
development of nuclear power in this country. At the same time, 
repositories provide the means for us to manage excess defense nuclear 
materials and promote global non-proliferation.
    After many years of study, the scientific consensus is that the 
best long-term solution for this legacy is safe disposal in a deep 
geologic repository. Above all, the most important goal for this 
program is the long-term safety of the repository. That is the most 
important test we have to pass. It is the program's vision to have an 
environmentally safe and secure repository that sets the standard for 
safety throughout the world.
    I hope the legacy of a safe repository at Yucca Mountain will be 
recognition that this facility served a vital role in both energy and 
national security for our Nation.

                          SUBCOMMITTEE RECESS

    Senator Domenici. We stand in recess.
    [Whereupon, at 3:50 p.m., Monday, April 7, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]

</pre></body></html>
